<html>
<title> - HURRICANE KATRINA: MANAGING LAW ENFORCEMENT AND COMMUNICATIONS IN A CATASTROPHE</title>
<body><pre>[Senate Hearing 109-807]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-807
 
                      HURRICANE KATRINA: MANAGING
                   LAW ENFORCEMENT AND COMMUNICATIONS
                            IN A CATASTROPHE

=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 6, 2006

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs




                    U.S. GOVERNMENT PRINTING OFFICE

27-025 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
                   David T. Flanagan, General Counsel
                     Chad T. Sarchio, DOJ Detailee
               Larry F. Vigil, Professional Staff Member
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                Robert F. Muse, Minority General Counsel
                 Stacey M. Bosshardt, Minority Counsel
        Michael L. Alexander, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     3
    Senator Levin................................................    23
    Senator Warner...............................................    27

                               WITNESSES
                        Monday, February 6, 2006

Michael J. Vanacore, Assistant Director, Office of 
  Investigations, Office of International Affairs, U.S. 
  Immigration and Customs Enforcement, U.S. Department of 
  Homeland Security..............................................     7
Kenneth W. Kaiser, Special Agent in Charge, Boston Field Office, 
  Federal Bureau of Investigation................................     9
Warren J. Riley, Superintendent of Police, New Orleans Police 
  Department.....................................................    11
Peter M. Fonash, Ph.D., Deputy Manager, National Communications 
  System, U.S. Department of Homeland Security...................    36
Colonel FG Dowden, Regional Liaison, New Orleans Department of 
  Homeland Security and Public Safety............................    39
William L. Smith, Chief Technology Officer, BellSouth Corporation    42

                     Alphabetical List of Witnesses

Dowden, Colonel FG:
    Testimony....................................................    39
    Prepared statement...........................................    86
Fonash, Peter M., Ph.D.:
    Testimony....................................................    36
    Prepared statement...........................................    77
Kaiser, Kenneth W.:
    Testimony....................................................     9
    Prepared statement...........................................    63
Riley, Warren J.:
    Testimony....................................................    11
    Prepared statement...........................................    69
Smith, William L.:
    Testimony....................................................    42
    Prepared statement...........................................    92
Vanacore, Michael J.:
    Testimony....................................................     7
    Prepared statement...........................................    55

                                APPENDIX

Exhibit 6........................................................   106
Exhibit 7........................................................   109
Exhibit 20.......................................................   111
Exhibit P........................................................   122


                    HURRICANE KATRINA: MANAGING LAW



                     ENFORCEMENT AND COMMUNICATIONS



                            IN A CATASTROPHE

                              ----------                              


                        MONDAY, FEBRUARY 6, 2006

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:04 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Warner, Lieberman, and Levin.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order.
    Today the Committee will examine two essential elements of 
disaster response: Strong, coordinated law enforcement to 
protect the public and first responders, and effective 
communications to expedite rescue and relief efforts. Both of 
those elements were tragically absent in the immediate 
aftermath of Hurricane Katrina. In this, the Committee's 16th 
hearing on Katrina, we will focus on the deficiencies in 
planning and management that added to the misery and fear of 
the victims and that made the arduous work of first responders 
even more difficult and needlessly dangerous.
    In the first days after Katrina struck, reports of murder, 
rape, and looting were rampant. Fortunately, some of these war 
stories turned out to be false. Still, while the overwhelming 
majority of the people in the Gulf region pulled together to 
help one another through the crisis, there were criminal 
opportunists who sought to intimidate or vandalize or steal. 
These criminals added yet another dimension to the suffering of 
our fellow Americans caught in the hurricane's wake.
    In addition to the harm caused by actual criminal activity, 
Katrina's victims were harmed by the wildfire of rumors that 
swept through their communities. Indeed, the horror stories 
coming out of the Superdome in New Orleans were so numerous, so 
frightening, and so often repeated, not just by the news media 
but by city officials as well, that FEMA medical teams withdrew 
from the very place they were needed the most.
    The basic question we will explore with our first panel of 
witnesses is to what extent the law enforcement community at 
the local, State, and Federal levels anticipated that a major 
natural disaster would bring about lawlessness. We also want to 
know how law enforcement agencies planned to cope with the 
disintegration of their normal operations, with individual 
officers cut off from their units, units cut off from their 
departments, and departments cut off from one another. Who 
takes control when resources are scattered and the chain of 
command is stressed to the breaking point?
    The specific issues we will explore cut to the very heart 
of effective disaster response: Planning for the predictable 
consequences of a disaster and having a structure in place that 
can overcome the unexpected. For example, the defections from 
the New Orleans Police Department contributed both to the 
actual lawlessness and the perception that crime in the city 
was beyond control. Some defections may have been the result of 
dereliction of duty. Others, however, were the result of 
officers being caught in their own personal crises and, thus, 
being unable to respond. That is a predictable consequence of 
any major disaster, yet there seems to have been no plan in 
place to reorganize and reconstitute the department following 
its initial disruption.
    And how prepared were government agencies at the State 
level to respond to the law enforcement collapse in the city? 
We must also learn where Federal law enforcement fits into this 
picture, in particular, what effect the split command between 
the Departments of Justice and Homeland Security had upon the 
speed and effectiveness of the Federal response. The lack of 
coordination among law enforcement agencies at all levels of 
government appears to be glaring and unacceptable.
    Similarly, shouldn't it have been apparent that if New 
Orleans flooded, then the city's correction facilities would 
also flood? There is no question that the Orleans Parish 
Central Jail would have to be evacuated. We must learn why pre-
disaster planning failed to anticipate this and what effect the 
lack of back-up facilities had on the ability to control crime.
    Among all the examples of insufficient pre-disaster 
planning, this is one of the most troubling and one that had a 
considerable effect on public safety and the security of first 
responders.
    Communications failures plagued nearly every aspect of 
Katrina response and relief, including law enforcement. Our 
second panel of witnesses represents a wide range of expertise 
in emergency communications both from government and the 
private sector. When the telephone lines and the cell towers 
went down and the power went out, the ability of agencies to 
mount an effective and coordinated response was lost, and the 
public was plunged into even greater uncertainty and fear. The 
thousands of unanswered 911 calls are evidence of that.
    This collapse of the public telecommunications system was 
accompanied by that long-standing Achilles heel of emergency 
response: The lack of interoperable communications equipment 
among emergency response agencies. Communications among first 
responders and with their headquarters were, at best, sporadic, 
inconsistent, and at times overwhelmed by competing traffic. 
More often it was non-existent as the captain from the New 
Orleans Police Department testified last week. Also last week 
we heard Governor Haley Barbour of Mississippi say that the 
lack of survivable interoperable communications was the single 
biggest problem he confronted.
    The collapse of communications systems was so widespread 
and so complete, Governor Barbour told us, that the head of his 
State's National Guard might as well have been a Civil War 
general, having to communicate with field commanders by 
messenger instead of with technology. For communications 
technology to serve as the powerful tool it can be in a 
disaster response, it must be able to withstand the disaster 
itself, or back-up equipment must be readily available.
    This Committee has invested a great amount of effort over 
the past several years to strengthen the emergency response 
partnership and to improve our Nation's emergency 
communications capabilities, and we have made some progress. 
The issue we will highlight today, however, demonstrates the 
grim consequences that result when that partnership breaks down 
and communications fail.
    This hearing will show how very much more needs to be done, 
starting with the enactment of the Lieberman-Collins 
interoperability communications bill.
    I yield to my colleague.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thank you, Madam Chairman. It is a 
measure of the quality of our relationship that I always call 
it the Collins-Lieberman bill. I thank you for mentioning it, 
and I agree with you.
    In today's hearing, Managing Law Enforcement and 
Communications in a Catastrophe, we are going to examine two 
capacities that are crucial to any effective response to a 
disaster. Emergency response will never be successful in our 
country if our Federal Government, working with State and local 
governments, is unable to help restore order and maintain 
communications at the scene of a disaster, whether it is 
natural or a terrorist attack.
    The National Response Plan (NRP), which was issued in 
January 2005, clearly puts the Department of Homeland Security 
in charge of making sure communications and law enforcement 
work in an emergency. Unfortunately, as today's hearing will 
show, and as I have come to learn as our investigation has gone 
on, the Department of Homeland Security was largely unprepared 
to provide the emergency communications and law enforcement 
support the Gulf Coast needed after Hurricane Katrina struck. 
And that is a serious failure. That failure was part of a 
larger failure, which in some sense began on January 6, 2005 
when the NRP was issued and continued right until August 29, 
when Hurricane Katrina struck. It was a failure by the 
Department of Homeland Security to take steps to activate its 
role under the NRP and get ready to carry out its 
responsibilities under that plan in time of disaster anywhere 
in America.
    Its unpreparedness left State and local police, 
firefighters, search and rescue teams, Red Cross, and FEMA 
volunteers adrift in this enormous disaster without 
communications or the public safety support they needed from 
the Federal Government. The portion of the NRP that addresses 
public safety and security creates a framework for Federal law 
enforcement to assist other Federal, State, and local 
authorities during what is labeled by the NRP ``an incident of 
national significance.'' But under this portion of the plan, 
which is designated ESF-13, for Emergency Support Function 13 
two agencies instead of one are designated as the coordinators: 
The Department of Homeland Security and the Department of 
Justice.
    Evidence gathered by our staff makes clear that in the 
critical days before, during, and after Katrina, there was 
little coordination between these two Federal agencies and, in 
fact, little coordination within the agencies as well.
    The Homeland Security Department's senior leadership failed 
to understand it had a leadership role for public safety, and 
so far as I have reviewed, our investigation to date has 
produced no evidence that anyone in the Department of Homeland 
Security was given clear, explicit responsibility to take the 
lead on public safety for the Department in the days before 
landfall or in the days immediately after the hurricane struck.
    The responses to these two emergency functions that we are 
focused on in this hearing today--ESF-2, which is 
communications, and ESF-13, which, as I have said, is public 
safety and security--raise troubling questions about who was in 
charge of the NRP, generally, who was making sure that the NRP 
was being properly activated, ready to be implemented. Later 
this week, we will hear from people from FEMA and the 
Department of Homeland Security, and then next week we will 
hear from Secretary Chertoff of DHS. And I intend to ask those 
witnesses those very important questions.
    While they saw the storm coming, as the rest of America 
did, on television, and even after the President in response to 
requests from the governors in the region declared a state of 
emergency on Saturday, August 27, the Department of Justice 
waited to be asked for law enforcement help to take any action. 
On August 30, Tuesday, the day after landfall, DOJ did receive 
a request from the State of Louisiana, but documents show the 
response by the Department of Justice was delayed while it 
struggled to answer fundamental questions about its authority 
under the NRP, which, of course, should have been answered long 
before the hurricane struck.
    This confusion was compounded by a lack of cooperation 
between the Department of Justice and the Department of 
Homeland Security. According to e-mails our staff has obtained 
from DHS, there appears to have been a conflict between the two 
Departments over who should be in charge of law enforcement 
assistance to the city of New Orleans.
    Our exhibits today in the book that the witnesses have 
specifically include an e-mail dated September 4, 2005, that 
refers to a dispute as to who would take the lead--the FBI, 
which is under the Department of Justice, or the Immigration 
and Customs Enforcement agency, under DHS.\1\ This lack of 
coordination clearly slowed Federal assistance to New Orleans, 
which could have helped avoid the breakdown of law and order 
that had serious consequences on the ground in the desperate 
and confusing aftermath of Katrina.
---------------------------------------------------------------------------
    \1\ Exhibit 6 appears in the Appendix on page 106.
---------------------------------------------------------------------------
    For example, as we have heard, FEMA Disaster Medical 
Assistance Teams deployed to the Superdome to assist evacuees 
with special needs decided to abandon their posts and, in fact, 
their patients and leave their supplies and equipment behind 
because the teams grew concerned about security, including 
rumors that segments of the crowd at the Superdome were 
plotting to stage a riot on the third day after landfall. On 
the same day, which was Thursday, September 1, search and 
rescue and communications teams in New Orleans were also forced 
to curtail critical operations in large parts of the stricken 
city for similar safety reasons.
    So public safety fears, in some cases some people say they 
were exaggerated, but whether they were exaggerated or not, 
those fears limited the rescue and recovery efforts, and that 
must not be allowed to happen again.
    Our second panel today deals, as Senator Collins has said, 
with communications and the twin problems of the inability of 
first responders to talk to each other, which can be described 
as interoperability, and in this disaster the inability to talk 
at all, which might be called operability. The heroes of the 
search and rescue efforts in New Orleans who testified before 
this Committee last week about their inability to communicate 
with each other, with the victims, and with coordinators at the 
Emergency Operations Center (EOC) in Baton Rouge really left an 
impression on me.
    Katrina's high winds and subsequent flooding caused what 
the Federal Communications Commission called ``extraordinary'' 
destruction of communications facilities. And it was 
extraordinary. It reminds us all how much we depend on those 
systems in our daily lives, let alone in a disaster. Almost 3 
million telephone lines were knocked down by Katrina. Thirty-
eight 911 call centers were put out of action, and more than 
1,000 cell towers were left useless. Most over-the-air and 
cable television service was wiped out by Hurricane Katrina.
    Now, those enormous outages not only made it extremely 
difficult for hundreds of thousands of victims to get emergency 
information or communicate with family and friends, they also 
crippled the ability of government officials and first 
responders to coordinate their activities and respond.
    Despite the clear responsibility given to the Department of 
Homeland Security under the NRP to assure communications 
support to Federal and State and local response efforts in a 
disaster, the fact is that the Department, as far as we can 
determine, had no plan when Katrina struck to provide such 
emergency support. While the National Communications System, 
which we will hear about in the second panel, which is within 
the Department of Homeland Security, did engage in daily 
contact with the telecommunications industry, which was helpful 
in facilitating restoration of landline and cellular systems, 
as far as we can determine, it had no similar contact with 
State or local governments who were desperately in need of 
their help to restore communications.
    DHS was simply unprepared to move in with mobile systems, 
for instance, to provide emergency communications solutions to 
the police, fire department, search and rescue teams, and other 
first responders who were struggling to save lives in the days 
after landfall.
    As Chairman Collins indicated, last week Mississippi 
Governor Haley Barbour and New Orleans Mayor Ray Nagin and 
Louisiana Governor Kathleen Blanco all testified that 
communications failures greatly hampered emergency response 
efforts and, along with interoperability, Governor Barbour 
specifically said, is the number one problem that they feel 
needs to be addressed before disaster strikes again.
    This inability to communicate after Katrina serves as a 
grim reminder that 4 years after September 11, our Nation was 
still nowhere near as prepared as it should have been for a 
major disaster. So restoring law and order and maintaining 
communications, both for first responders as well as the 
stricken population, have got to be crucial missions for the 
Federal Government in the immediate aftermath of an American 
catastrophe, and in the case of Hurricane Katrina, which was an 
American catastrophe, neither happened. We need to find out why 
in this investigation if we are to make sure that never happens 
again.
    Thank you, Madam Chairman. Thanks to the witnesses for 
being here. I look forward to their testimony.
    Chairman Collins. Thank you.
    I am very pleased to welcome our panel of witnesses today. 
Each of them has a deep commitment to law enforcement and has 
devoted many years to public service.
    Michael Vanacore is Director of the Office of International 
Affairs for Immigration and Customs Enforcement and was a key 
member of the transition team when the Department of Homeland 
Security was created 3 years ago. After Katrina hit, he was 
assigned to New Orleans to serve as a liaison between the DHS 
headquarters and its personnel on the scene.
    Ken Kaiser is the Special Agent in Charge of the Federal 
Bureau of Investigations Field Office in Boston. I would note 
that he has worked very hard with my office to create the Joint 
Terrorism Task Force in the State of Maine, and I am grateful 
to him for those efforts. Among many supervisory assignments 
during his 23 years with the FBI, he served as Special Agent in 
Charge of the New Orleans FBI office from 2001 to 2004, and 
that experience caused him to volunteer to deploy to New 
Orleans. In the aftermath of Katrina, he was tasked with 
commanding the FBI's tactical assets.
    Warren Riley is the Superintendent of Police for the City 
of New Orleans and a 24-year veteran of the New Orleans Police 
Department. During Hurricane Katrina, he was the department's 
chief of operations. As such, he commanded all the field units, 
precincts, and SWAT teams during the response effort.
    I would ask that you each rise so that I can swear you in. 
Do you swear that the testimony that you are about to give the 
Committee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Mr. Vanacore. I do.
    Mr. Kaiser. I do.
    Mr. Riley. I do.
    Chairman Collins. Thank you. Mr. Vanacore, we will begin 
with you.

TESTIMONY OF MICHAEL J. VANACORE,\1\ ASSISTANT DIRECTOR, OFFICE 
   OF INVESTIGATIONS, OFFICE OF INTERNATIONAL AFFAIRS, U.S. 
    IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Vanacore. Thank you, Madam Chairman, Ranking Member 
Lieberman. It is an honor for me to appear before you today to 
discuss U.S. Immigration and Customs Enforcement (ICE) and how 
our Federal law enforcement and support personnel responded to 
Hurricane Katrina.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Vanacore appears in the Appendix 
on page 55.
---------------------------------------------------------------------------
    Before I begin to share with the Committee the details of 
our support to the people of New Orleans and Louisiana during 
and after Hurricane Katrina, I want to talk for a moment about 
the agency I am proud to represent.
    ICE's principal mission is to protect the American people 
by combating criminal and terrorist activities that cross our 
borders and threaten us here at home. The men and women of ICE 
accomplish this by investigating and enforcing the Nation's 
immigration and customs laws while also protecting vital 
Federal facilities throughout the Nation. Working overseas, 
along our borders, and throughout the Nation's interior, ICE 
agents and officers prove every day that the newly merged 
customs and immigration authorities create a powerful 
enforcement mechanism. These unique enforcement tools allow ICE 
to quickly detain, arrest, and remove from this country those 
who violate our borders and also develop stronger cases that 
are more likely to be accepted for prosecution with more 
significant penalties.
    By leveraging the full enforcement potential provided by 
the new and unique blend of customs and immigration authorities 
wielded by ICE, we are making it more difficult for potential 
terrorists and organized criminal groups to move themselves, 
their supporters, or their weapons across our borders through 
traditional human, drug, contraband, or financial smuggling 
networks, routes, and methods.
    By virtue of their dedication, excellence, and commitment, 
the men and women of ICE have made great strides since 2003 in 
building upon their traditional strengths and capabilities 
while simultaneously creating a new agency.
    Nowhere was this more evident than in our unprecedented 
response to Hurricane Katrina.
    Prior to Hurricane Katrina making landfall, 30 ICE Federal 
Protective Service (FPS) personnel were on the ground, in the 
area, in preparation for the storm supporting the Federal 
Emergency Management Agency relief operations--medical 
assistance teams, Red Cross, and evacuation shelters--as per 
agreement with FEMA and protecting the Federal facilities in 
the affected area. Additionally, a FPS Emergency Response Team 
was deployed immediately from Washington, DC, and further 
personnel were pre-staged along with resources in Houston and 
Fort Worth, Texas; Jackson, Mississippi; Atlanta, Georgia; and 
Tallahassee, Florida. As a component of ICE, FPS was on the 
ground before the storm came ashore.
    In response to the magnitude of the storm and the 
subsequent flooding, ICE deployed large numbers of law 
enforcement and support staff to the affected area. Countless 
times, in response to the exigent circumstances in the area, 
ICE agents and officers participated directly in response, 
rescue, and recovery efforts while also simultaneously 
establishing and visibly demonstrating a robust law enforcement 
presence. We accomplished this in the midst of countless life-
or-death situations with an almost complete absence of local 
law enforcement capability and infrastructure. Over the course 
of ICE's commitment to the entire Katrina operation, we 
deployed nearly 2,000 law enforcement officers.
    With respect to my personal involvement in Hurricane 
Katrina, I was notified on Friday, September 2, 2005, that I 
had been selected to deploy to Louisiana and attended a meeting 
at DHS headquarters that same day. I departed Washington, DC, 
by commercial air for Louisiana on Sunday, September 4, 2005. I 
was charged with serving as ICE's lead representative on the 
ground to help coordinate the ongoing Federal, State, and local 
law enforcement activities while ensuring connectivity between 
the field and ICE headquarters. Over the course of ICE's 
support to Louisiana, our agents and officers completed 
thousands of law enforcement and security assignments and 
rescued hundreds of citizens from their residences.
    Any response to a natural disaster of this magnitude on 
U.S. soil cannot and should not escape close scrutiny in an 
effort to improve our ability to assist those affected. Many 
questions have been asked, such as what lessons have we learned 
on pre-hurricane deployments and how we can enhance emergency 
preparedness, strengthen command and control, and increase 
coordination between Federal, State, and local law enforcement, 
first responders, and the National Guard.
    The Department has publicly acknowledged that Katrina 
revealed problems in national response capabilities, stretching 
back more than a decade, and demonstrated the need for more 
comprehensive Federal, State, and local planning for 
catastrophic events. DHS has publicly announced that it will 
issue a comprehensive strategy to improve the Nation's 
capability to manage catastrophic incidents in the very near 
future.
    In closing, I would urge the Members of this Committee that 
in the course of your important oversight responsibilities to 
consider that the numbers of DHS and ICE personnel deployed do 
not begin to tell the whole story. Every one of our deployed 
agents, officers, and support staff left friends and family to 
help others in the face of great hardship and uncertainty. Upon 
arrival, our people worked round the clock in a very austere 
environment. Their tireless work and dedication to their 
mission reflected the very highest performance standards of the 
Department of Homeland Security.
    At the outset, our goal was to provide critically needed 
assistance to the people of Louisiana during a very difficult 
time. We fulfilled our mission by assisting the people and 
police departments throughout the State, and most importantly, 
we saved lives.
    Thank you for your continuing support of the men and women 
of ICE and the Department of Homeland Security. I would be 
pleased to answer any questions you might have.
    Chairman Collins. Thank you. Mr. Kaiser.

  TESTIMONY OF KENNETH W. KAISER,\1\ SPECIAL AGENT IN CHARGE, 
      BOSTON FIELD OFFICE, FEDERAL BUREAU OF INVESTIGATION

    Mr. Kaiser. Good afternoon, Chairman Collins, Ranking 
Member Lieberman. I am pleased to be here today to discuss the 
Federal Bureau of Investigation's response to Hurricane 
Katrina. I am currently the Special Agent in Charge (SAC) at 
the FBI's Boston Division where I am responsible for 268 FBI 
special agents and 205 FBI support personnel in an area which 
covers four New England States. Prior to my current assignment 
from August 2001 through March 2003, I was the SAC of the FBI's 
New Orleans Division. During my tenure in New Orleans and 
continuing through today, the FBI has enjoyed strong 
relationships with our State and local law enforcement partners 
in Louisiana.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kaiser appears in the Appendix on 
page 63.
---------------------------------------------------------------------------
    We are all aware of the catastrophic damage caused by the 
storm. Although the FBI has a broad mission, Hurricane Katrina 
posed unique and unprecedented challenges. Historically, the 
FBI has had a very limited role in response to natural 
disasters, but the large-scale destruction of the Gulf Coast 
region from Hurricane Katrina and the substantial failure of 
the infrastructure led to post-storm events not previously 
experienced. With our assets, resources, and crisis management 
experience, the FBI was able to address some of the unique law 
enforcement needs of the region following the storm.
    Prior to the landfall of Hurricane Katrina, the Special 
Agent in Charge (SAC) of the FBI's New Orleans Division, Jim 
Bernazzani, had made preparations for continuity of his 
division's operations. These included establishing a protocol 
for communications with his employees and arranging for the 
deployment of personnel, equipment, and supplies from the FBI 
Division in Quantico, Virginia, to Baton Rouge, Louisiana, 
where SAC Bernazzani intended to temporarily relocate his field 
office operations should that become necessary. As Hurricane 
Katrina made landfall, SAC Bernazzani and a small staff 
remained in the FBI office in New Orleans to ensure the 
security of the FBI's records, equipment, and evidence. Once 
the storm had passed and FBI SWAT agents relieved SAC 
Bernazzani, he immediately relocated to a mobile FBI command 
post in Baton Rouge, which provided him with the communications 
equipment he needed to begin accounting for his personnel and 
re-establishing FBI field operations. As it became evident that 
the vast majority of the FBI New Orleans Division personnel had 
been displaced, additional FBI personnel from around the 
country were deployed to New Orleans to ensure FBI operations 
continued.
    On September 1, the Office of the Attorney General directed 
the DOJ components to identify personnel, assets, and other 
resources for immediate deployment to areas impacted by 
Hurricane Katrina. On September 2, having received the 
inventory of assets and personnel available for deployment, the 
Attorney General issued a memorandum directing its components 
as follows:
    The FBI to continue to deploy Special Agents, including 
SWAT agents, and tactical assets, including helicopters, boats, 
and technical and communications assets, to the affected area;
    The DEA to prepare to deploy Mobile Enforcement Teams, 
special agents, and tactical assets, including helicopters and 
other aircraft, to the affected area;
    The ATF to establish a Violent Crime Impact Team in Baton 
Rouge, Louisiana, with related personnel and assets, to address 
any rise in criminal activity in the city;
    The U.S. Marshals Service to continue to deploy Deputy U.S. 
Marshals and court security officers to conduct prisoner 
transport operations and provide additional court security and 
to prepare to utilize the Justice Prisoner and Alien 
Transportation Act to deploy law enforcement personnel to 
airports around the country as needed.
    I was deployed to Louisiana and designated the FBI Tactical 
and Emergency Operations Commander. As such, I was responsible 
for the command and control of all FBI tactical assets deployed 
to the area. My role was to coordinate and manage requests for 
standard SWAT operations such as high-risk arrests or search 
warrants, officer rescue operations, and other operations 
supporting Federal investigations. I also directed the 
coordination, management, and execution of critical 
infrastructure and site security operations requested by the 
Federal Emergency Management Agency or other components of the 
Department of Homeland Security under the National Response 
Plan Emergency Support Function 13, ESF-13.
    Upon my arrival in New Orleans on September 1, 2005, it was 
immediately apparent to me that the effects of the storm and 
subsequent damage to the levees had severely affected the 
ability of the New Orleans Police Department to perform 
effectively. New Orleans Police Department officers were 
dealing with personal losses from Hurricane Katrina, were 
without a supporting infrastructure, and were depleted of such 
resources as communications, ammunition, transportation, and 
food. Effective law enforcement activities could not be 
conducted under these circumstances. Also, many law enforcement 
agencies from around the country were sending resources into 
New Orleans.
    The NRP contemplates that a senior law enforcement official 
will be appointed during an Incident of National Significance 
to oversee the combined Federal, State, and local law 
enforcement response to the incident. The FBI identified New 
Haven Division Special Agent in Charge Michael J. Wolf as 
having the experience and expertise to support this mission. 
SAC Wolf was deployed to Louisiana on September 4, 2005, and 
arrived late that evening to begin the process of establishing 
an effective method of command, control, and coordination of 
law enforcement assets in New Orleans.
    SAC Wolf and U.S. Immigration and Customs Enforcement 
Assistant Director Michael Vanacore assumed the duties of 
SFLEOs after being identified by their respective agencies. In 
order to address the identified gaps in the law enforcement 
response, SAC Wolf established the Law Enforcement Coordination 
Center. The purpose of the LECC was to coordinate, deconflict, 
and track requests for and response to law enforcement support; 
to organize and coordinate interaction among law enforcement; 
to ensure coordination between law enforcement efforts and 
National Guard and Department of Defense operations; and to 
provide limited investigative and criminal law enforcement 
resources, until such time as the NOPD was able to maintain 
service without additional resources from other law enforcement 
agencies.
    I was specifically asked to talk about the FBI's effort to 
train its agents in accordance with the NRP. One of the 
missions of the FBI's Critical Incident Response Group is to 
provide training to select FBI personnel in the effective 
response to critical incidents. The FBI defines a critical 
incident as any situation, event, or set of circumstances that 
poses a serious threat, diverts significant resources, and/or 
demands command level coordination. Our training includes 
instruction on the NRP, as well as other national plans and 
policies, and the roles and responsibilities of the FBI in 
accordance with them. CIRG conducts this training on a regular 
basis for members of the Senior Executive Service, including 
FBI SACs, FBI middle management at the FBI's Executive 
Development Institute, and field division crisis management 
coordinators, who are the individuals within each field 
division tasked with ensuring the division's crisis response 
operational readiness. Additional training is afforded to all 
levels of FBI personnel through their participation in various 
interagency counterterrorism exercises, including the senior 
official and TOPOFF series of exercises.
    The FBI's after-action review process of our involvement 
and performance in response to Hurricane Katrina is ongoing. 
FBI executives are also engaged in the Administration's review 
of the Federal Government's response to Katrina and continue 
discussions with other departments and agencies about ways to 
improve our response to such catastrophic events.
    Thank you for the opportunity to appear today, and I would 
be happy to answer your questions.
    Chairman Collins. Thank you. Superintendent Riley.

TESTIMONY OF WARREN J. RILEY,\1\ SUPERINTENDENT OF POLICE, NEW 
                   ORLEANS POLICE DEPARTMENT

    Mr. Riley. To Senator Collins as Chairman, Senator 
Lieberman as Ranking Member, and to all Members of the Senate 
Committee on Homeland Security, thank you for the opportunity 
to be here today to speak to you directly on behalf of the men 
and women of the New Orleans Police Department.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Riley appears in the Appendix on 
page 69.
---------------------------------------------------------------------------
    I am Warren Riley, Superintendent of the New Orleans Police 
Department. I was sworn in as Superintendent on November 28, 
2005. When Hurricane Katrina struck, I was the second ranking 
officer under then-Superintendent Edwin Compass.
    To begin, on Saturday, August 27, 2005, at about 7:30 a.m., 
I received a call from the Director of Homeland Security and 
Public Safety for the City of New Orleans, Colonel Terry 
Ebbert, and was instructed to meet him at City Hall as soon as 
possible. When I arrived at City Hall, I was met by Colonel 
Ebbert; Deputy Superintendent Steven Nicholas, the Assistant 
Chief for the Technical and Support Bureau; and Superintendent 
Edwin Compass. At that meeting, we were advised by Colonel 
Ebbert that Hurricane Katrina would, in fact, impact New 
Orleans in a drastic way. After a brief conversation with 
Colonel Ebbert, then-Superintendent Compass called for an 
immediate command staff meeting. We met with every commander 
and most of the assistant commanders of each district and major 
unit within the New Orleans Police Department. That meeting 
began at 10 a.m. that same Saturday morning.
    We advised the command staff that Hurricane Katrina was 
expected to be a very severe storm--a Category 3 or 4--and we 
would possibly be in the direct path of the storm. We informed 
the command staff that Hurricane Katrina might, in fact, cause 
substantial wind damage and possible street flooding.
    All commanders were instructed to, first and foremost, 
ensure their officers to provide for the safety of their 
families. As per instructions from then-Superintendent Compass, 
commanders were advised to be prepared for storm duty by 4 p.m. 
on Sunday, August 28. Vehicles were to be fueled and a limited 
number of vehicles were to remain in service. The remainder of 
the fleet was to be stored in prearranged, designated locations 
above ground where commanders believed they were safe and 
easily accessible. Those commanders who believed that they did 
not have within their geographic districts suitable parking 
facilities were instructed to place the vehicles in one of two 
designated parking garages in the Louisiana Superdome. Our own 
limited number of full-size SUVs remained in service.
    On Sunday, August 28, we continued communications with all 
of the various commanders, assuring that all necessary actions 
were being taken in preparation for the storm. Later that day, 
Mayor Nagin announced a mandatory evacuation of all citizens in 
the City of New Orleans.
    The responsibility of the New Orleans Police Department was 
to traverse all areas of the city with marked units, lights and 
sirens on, announcing through their public address systems that 
there was a mandatory evacuation, that all citizens must leave, 
must evacuate the City of New Orleans. Officers were staged at 
numerous locations around the city, where bus transportation 
was provided to transport citizens to the Louisiana Superdome. 
This effort continued until storm winds reached 50 to 55 miles 
per hour, at which time all officers were directed to relocate 
to their pre-staged locations to weather the storm.
    On Sunday night, August 28, I, along with members of my 
staff and Assistant Superintendent Steven Nicholas, reported to 
police headquarters. We prepared to weather the storm with our 
staffs, all essential communications personnel, recruits, and 
other units, as well as civilian employees and some family 
members.
    Strong storm winds began to roll in about 5:30 Monday 
morning. I was in my office on the fifth floor of police 
headquarters, and as I looked out of my window, I could see the 
wind. If you can imagine seeing the wind, that is how strong it 
was. I could hear the wind blowing, and I could hear the 
tornadoes coming--once, sometimes twice in an hour. I knew they 
were tornadoes because they sounded like a freight train 
passing. Sometimes that sound was too close for comfort.
    As I was looking out of my window, the window started to 
leak. The ceiling tiles began to fall and the entire frame for 
the window blinds came out of the ceiling. At that point we all 
moved from offices into the hallways.
    At about 7 a.m., I went down to the Communications Section 
on the second floor to contact my commanders and get a status 
report. When I walked into Communications, almost every 
dispatcher and 911 operator was crying. I asked one of the 
supervisors what was going on. She stated, ``Chief, you have to 
listen in on the calls.'' I was given a headset.
    I did not know that only moments earlier, the Industrial 
Street Canal levee breached and had an almost 200-yard opening 
and water was now pouring into the Lower 9th Ward. As I 
listened, I heard panicking mothers, fathers, husbands, wives, 
and children desperately pleading and begging for help. They 
were asking if there were boats or helicopters available. They 
had water rising in their homes. Some of them were stating the 
following:
    ``I can't swim.''
    ``My babies can't swim.''
    ``My husband has drowned, please help me.''
    ``The water's to my neck. I can't swim.''
    ``Oh, my God, the wind just blew my husband off the roof.''
    ``God, please help me.''
    When the water hit the Lower 9th Ward, it went from nothing 
to as high as 14 feet within 23 minutes.
    We had over 600 911 calls within the first 23 minutes. The 
calls came in as the streets flooded from west to east. Water 
flowed down the streets, from Jordan Road, Tennessee Street, 
Flood Street, and into St. Bernard Parish.
    Understand, our 911 dispatchers and operators heard the 
desperate pleas for help, but they were powerless to assist. 
They could not dispatch officers because the weather conditions 
were too dangerous. We still had sustained winds in excess of 
100 miles per hour. Pursuant to the Emergency Preparedness 
Plan, we cannot respond to emergency calls once sustained winds 
are greater than 55 miles per hour.
    Around 9:30 a.m. that day, the levees in Lakeview breached, 
and more desperate calls came from citizens trapped in their 
homes. Later that morning, the water overtopped the levees in 
eastern New Orleans and then the London Avenue Canal breached.
    As the day wore on, we learned that close to 300 police 
officers assigned to the Fifth, Third, and Seventh Districts 
were now stranded by flood water. Their vehicles were under 
anywhere from 8 to 13 feet of water and the officers had to be 
rescued. It took 24 to 48 hours to rescue all three districts.
    We had over 80 off-duty officers stranded on rooftops and 
in attics for many days.
    The Third, Fifth, and Seventh Districts were all located in 
three different medical facilities--two hospitals and a dental 
school--that were from six to eight stories tall. When the 
generator failed at one of the hospitals, the Fifth District 
personnel assisted medical staff in efforts to provide life 
support. The Fifth and Seventh Districts ensured that patients 
were evacuated from those medical facilities prior to leaving. 
The Third and the Seventh Districts had to be rescued due to 
high water. The Fifth District walked out in chest-deep water. 
All three of those units lost vehicles that were staged for 
their later use due to high water.
    The First, Second, and Sixth Districts immediately began to 
respond to 911 calls and assist in rescue operations. These 
officers also secured heavy equipment from work sites 
throughout the area and began removing obstructions from major 
streets so that officers could respond. The Fourth and Eighth 
Districts, which did not sustain flooding immediately, deployed 
anti-looting units to shopping areas and businesses.
    Using the three boats that we had, Special Operations 
Division began water rescue operations and responded to 911 
calls. At this time, many officers, using their own personal 
boats, joined in to assist with rescue operations. The bottom 
line is we shifted from traditional policing to responding as 
search and rescue units. Our priority was to save as many lives 
as possible.
    We had numerous calls for assistance from off-duty officers 
who were not expected to report to work until 4 p.m.
    Let me give you one real example of what our officers went 
through. Very early in the morning, while the winds were still 
very strong, we received via police radio a call for assistance 
from Officer Chris Abbott, who lives in eastern New Orleans. 
Officer Abbott advised that he was in his attic, water was up 
to his chest, and the water was rising very fast.
    He stated, ``I'm getting tired. I don't know if I'm going 
to make it this time.'' Understand that Officer Abbott had been 
shot twice in the line of duty before.
    Captain Jimmy Scott, Commander of the First District and 
former SWAT commander and now a Deputy Chief, began to 
communicate with Officer Abbott by radio. He told Officer 
Abbott that he could make it, to hang on. He asked Officer 
Abbott to find the attic vent. Officer Abbott stated that he 
was near the attic vent. Captain Scott instructed him to 
attempt to push or punch out the attic vent. Officer Abbott 
after several attempts stated he tried but he couldn't. He said 
again, ``I don't think I'm going to make it. I'm very tired.'' 
He then began to thank everyone in the department for all that 
they had done for him.
    At that time, Captain Scott asked if he had his weapon and 
if he had all of his rounds. Officer Abbott stated he had his 
weapon and all 45 rounds. Captain Scott instructed him to 
carefully fire each round into the base of the attic vent. 
Captain Scott advised him to use all of the rounds. There was 
then no response from Officer Abbott for about 5 minutes. Many 
officers who listened in continued to ask, ``Chris, are you 
there? Are you OK?'' But only silence. After about 5 minutes, 
Officer Abbott advised, ``I'm halfway out, and I'm going to 
make it.''
    Imagine the joyful relief of the many officers listening 
in, including those who were stranded and in desperate 
situations themselves.
    And this is only one of the many adversities and challenges 
that the men and women of the New Orleans Police Department 
overcame.
    In closing, there are many other heroic stories that were 
never told and may never have an opportunity to be expressed.
    Much has been said about officers abandoning their 
positions during the storm, and it is true that about 147 
officers abandoned their positions. However, they are no longer 
members of the New Orleans Police Department.
    Our dedicated officers are still working hard every day. 
Eighty percent of our officers lost homes; families were 
displaced; some are living on a ship or in trailers or 
elsewhere, separated from spouses and children, and seeing 
their families only once every 3 or 4 weeks.
    Admittedly, we did not handle everything perfectly. We hold 
ourselves accountable. We are working to ensure that lessons 
learned are implemented in our future Emergency Preparedness 
Plan.
    But Madam Chairman and Senator Lieberman and all of the 
Members of this Homeland Security Committee, one thing you 
should know is that 91 percent of the members of the New 
Orleans Police Department protected, sacrificed, served, 
prayed, and stayed all the way through Hurricane Katrina and 
its seemingly endless devastation.
    I am now prepared to answer any questions.
    Chairman Collins. Thank you very much. Your testimony was 
both chilling and eloquent, and it prompts me to tell each of 
you how grateful this Committee is for the work of the men and 
women whom you represent and also how much we appreciate your 
personal commitment.
    Our purpose here today is to learn the lessons of Hurricane 
Katrina. That is why we are here because we don't want what you 
just so eloquently described to happen again if we can possibly 
avoid it through better planning, through better coordination, 
through better communications. And the experiences of the first 
responders that you have just described are part of the reason 
that we are here. It is not just the victims in the traditional 
sense. It is the first responders who put their lives on the 
line time and again to rescue others, who suffered great injury 
and loss themselves. And it would be a disservice to them if we 
did not probe what happened and find out how we can improve.
    Superintendent Riley, I am, therefore, going to start with 
you with my questions. Your description of the 911 calls that 
you listened in on really is so compelling and so chilling. 
People were going through so much. The crisis was so urgent. It 
prompts me to ask you whether you believe that the city should 
have issued a mandatory evacuation order earlier in the 
process.
    Mr. Riley. Well, in hindsight, yes. Prior to the storm--and 
we have gone through many over the years. A mandatory 
evacuation had never been ordered to the best of my knowledge. 
Why? I really don't know. Had this happened a little earlier, 
would it have made it easier and better? Yes. But, again, this 
is after the fact.
    Chairman Collins. Last week, we heard truly compelling 
testimony that was deeply troubling about the number of nursing 
home residents who lost their lives, literally dozens who lost 
their lives because the nursing homes did not evacuate prior to 
the storm. And, indeed, the majority of nursing homes did not 
evacuate.
    Were your officers given any direction by city officials to 
go check on the various nursing homes within your jurisdiction?
    Mr. Riley. No, we were not given any direct orders to do 
that, but we were advised to traverse the entire city, for our 
officers to advise through a public address system that 
everyone--it was a mandatory evacuation, that everyone needed 
to evacuate the city. We did provide transportation to those 
who wanted to go to the Louisiana Superdome. But were we told 
to go to nursing homes? No.
    Chairman Collins. Were you aware of any special planning by 
the city to make sure that nursing home residents were 
evacuated?
    Mr. Riley. No. My understanding is that nursing homes have 
their own evacuation plan, and we will assist them with that 
plan. But was it in the plans? Not that I know of.
    Chairman Collins. It is my understanding that you were the 
chief of operations for the police department during Hurricane 
Ivan. Is that correct?
    Mr. Riley. Yes.
    Chairman Collins. At that time, prior to Hurricane Ivan, 
you requested and received from the National Guard high-water 
vehicles to be pre-staged at police districts around the city. 
Is that accurate?
    Mr. Riley. Yes.
    Chairman Collins. Did you make a similar request of the 
National Guard prior to Katrina to have five high-water 
vehicles and five boats stationed at each of the police 
stations around the city?
    Mr. Riley. That is correct. There was a conversation--I 
don't remember the ranking officer from the National Guard. I 
initially requested it through a lieutenant who was assigned to 
City Hall from the National Guard and asked them to place the 
vehicles--I don't remember if it was five or three--high-water 
vehicles at each district station and five boats at each 
district station. The lieutenant agreed. He put in the request.
    I then received a phone call maybe a few hours later from a 
higher-ranking officer of the National Guard who basically 
objected to those boats being located at those areas.
    I explained to him during the conversation, I said, ``It's 
obvious we're going to get some water. We don't know how much. 
However, if we place them at all district stations, we can 
immediately deploy in those areas that are dry.'' And I also 
asked him, because as he stated, he wanted to keep all assets 
at Jackson Barracks, which is the National Guard compound. And 
I asked him how was he going to get to Algiers, how was he 
going to get to other areas of the city, and he basically 
stated, ``I would prefer to keep all our assets here.''
    Chairman Collins. And, in fact, what happened is the 
barracks flooded, and access to many of those high-water 
vehicles was lost completely, was it not?
    Mr. Riley. I believe most of the high-water vehicles, if 
not all, were damaged or destroyed during the flood, and all 
the boats were lost, from what I understand.
    Chairman Collins. If your request had been granted, do you 
think that would have improved your ability to do search and 
rescue as well as to evacuate your own force?
    Mr. Riley. Well, it definitely would have improved our 
ability to get to areas of the city that took us probably 24 to 
48 hours to get to. We would have had five boats in the 
Carrolton area, which is uptown, which has not flooded before 
as it relates to a storm. We would have been able to address 
that and other areas more quickly, yes.
    Chairman Collins. Thank you.
    Mr. Vanacore, what was your understanding of the role and 
responsibilities of DHS under the Emergency Support Function, 
ESF-13, which is the public safety and security support 
function, prior to your being deployed to Louisiana?
    Mr. Vanacore. Madam Chairman, prior to that, I had no real 
connection with that. I was deployed basically as a 
representative of ICE, not of DHS. My initial response was not 
for the Department but for my Bureau.
    Chairman Collins. Although that support function was 
activated by FEMA pre-landfall, the decision to designate a 
senior Federal law enforcement officer was not made until 
September 4, which was almost a full week after landfall. Do 
you know why there was such a delay between when that support 
function was invoked and when a senior law enforcement officer 
was designated?
    Mr. Vanacore. I don't know the exact reason why that would 
be. I know our response was predicated--we had people on the 
ground, and the Federal Protective Service was part of the ESF-
13 process. But the designation didn't take place even--until I 
arrived on September 4. That was my first day in Louisiana.
    Chairman Collins. Do you think that the delay between 
recognition that the support function was going to be invoked 
and the designation of an official was harmful in any way?
    Mr. Vanacore. Madam Chairman, I don't believe so. I think 
that everybody on the ground was doing their job. We were law 
enforcement professionals. People were arriving and doing what 
needed to be done long before the designation was even 
discussed. I think DHS had significant numbers of people on the 
ground, as did DOJ, to try to help our colleagues in the NOPD. 
So I don't really believe harm was done.
    Chairman Collins. There were actually two senior law 
enforcement officials who were ultimately designated. Is that 
correct?
    Mr. Vanacore. That's correct. They were designated, but not 
officially designated. There was an indication that there would 
be a designation, but that never actually happened. We served 
in that function without official designation.
    Chairman Collins. And who was the other individual who was 
the senior law enforcement officer?
    Mr. Vanacore. SAC Michael Wolf from the FBI was my 
counterpart.
    Chairman Collins. So we had a senior law enforcement 
officer designated by DHS and one for the FBI. Do you think 
that it would have been preferable to have one law enforcement 
officer designated as the senior official for purposes of 
control and command?
    Mr. Vanacore. Madam Chairman, my opinion is that it is 
always better to have one person in the lead. I think in this 
particular case it worked with the co-leads because SAC Wolf 
and I worked very well together, had little or no conflict, and 
moved forward as we needed to. But if you are asking an 
opinion, I would say it is always good to have one field 
general.
    Chairman Collins. Mr. Kaiser, what is your judgment on that 
issue?
    Mr. Kaiser. Well, I would echo what Mr. Vanacore said. I 
would tell you that Mr. Wolf and Mr. Vanacore worked 
seamlessly. As you are aware, I was the tactical and crisis 
management coordinator for the FBI, and I, sitting from the 
outside, saw no conflict or struggle between the two. So I 
think they worked very well together.
    It should be noted that I was contacted on Friday, 
September 2, by DHS and asked to be the law enforcement liaison 
to the consequence management side. At that time I could not 
fulfill that position because I was operating as the tactical 
and crisis management coordinator for the FBI, but I told them 
I would serve in that capacity until Mr. Vanacore and Mr. Wolf 
got there, which I did, in fact, do.
    Chairman Collins. Mr. Vanacore, although I have no doubt 
that you worked very well on a personal level with your FBI 
counterpart, if you look through the documents, through the e-
mails, there is considerable evidence that suggests there was a 
lot of tension between DHS and the Department of Justice on who 
was going to be the lead, who was going to be in charge. And I 
would like you to refer to Exhibit 6 \1\ in the exhibit book.
---------------------------------------------------------------------------
    \1\ Exhibit 6 appears in the Appendix on page 106.
---------------------------------------------------------------------------
    This document is a chain of e-mails among DHS personnel 
concerning whether or not the FBI is going to take over the 
Federal law enforcement response in New Orleans, and on the 
second page of the e-mail chain is an e-mail from John Clark, 
the Acting ICE Director, which reads in part, ``Below are 
communications between ICE and DHS PAOs discussing the rumors 
that the FBI has now been designated to lead the law 
enforcement effort in New Orleans. I think DHS has one 
opportunity to turn this fiasco around. Having failed in many 
aspects on preparation, emergency assistance, and recovery, if 
we now turn our homeland security responsibility over to the 
FBI/DOJ, we might as well all await 3SR''--which I assume is a 
reference to the Second Stage Review.
    There are many other e-mails in that chain. My time has 
expired, but I want to get your response to that. It looks like 
there was a debate between DHS, particularly ICE, and the FBI 
on who was going to be in charge, and there is in Exhibit 7,\2\ 
an e-mail chain between you and Marcy Forman in which you 
write, ``If we don't act, this is where we are going. DOJ is 
looking to run this whole effort. If we don't get a push from 
above, we are not going to be at the table.''
---------------------------------------------------------------------------
    \2\ Exhibit 7 appears in the Appendix on page 109.
---------------------------------------------------------------------------
    Could you give us a better understanding of this tension 
between DHS and the Department of Justice?
    Mr. Vanacore. Yes, Madam Chairman, I could try. Basically, 
if you look at those e-mail strings, they're both very early in 
the process. I think mine is on the first day I arrived, and 
Mr. Clark's is soon thereafter.
    We were, I think, suffering some confusion as to what our 
role would be, whether DHS would be part of the senior Federal 
law enforcement official function or not. We had a significant 
number of assets down there, I think by then over 1,000 people 
on the ground. And I know that in my response, I knew that we 
needed a place at the table because of the significant amount 
of assets there.
    I think in the field what was actually happening--didn't 
have a problem, there were no problems at all in the field, and 
the higher-level one, Mr. Clark's memo, did not even include 
field people. So whatever tensions were being felt at the DHS 
supervisory level weren't being felt between SAC Wolf and 
myself.
    I think as was said, we worked well together. Once 
everybody got on the ground and started working together, it 
was apparent that it really didn't matter who was in charge, 
and we had many conversations, SAC Wolf and myself, in which it 
was, I think, apparent to all of us that had he been designated 
and I was co or deputy, it would have still worked.
    So the tension might have been above. We thought we needed 
a place at the table. I don't think we wanted to have an all-
DOJ response because of the significant assets we had there. It 
was just a matter of making sure we controlled our own destiny.
    Chairman Collins. Was there a feeling that if it is a 
terrorist attack, the FBI should be in the lead, but if it is a 
natural disaster, the Department of Homeland Security should be 
in the lead?
    Mr. Vanacore. I think it was clear on a terrorist attack it 
would be the FBI in the lead and there would have been no 
dissension at all. On a natural disaster, I think it was less 
clear as to who should be in the lead, so the co-designation, I 
think, was the compromise for that.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman.
    Mr. Vanacore, let me say to you first that both in my 
opening statement, which was critical of the Department of 
Homeland Security, and in any questions that I ask now, my own 
conclusion based on what our staff has said is that you really 
performed extremely well in response to Hurricane Katrina, but 
my conclusion is that you and a lot of others were put in an 
untenable position in this sense: The very fact that when you 
are sent down there, as Chairman Collins' line of questioning 
just elicited, it is not clear whether you or the FBI agent in 
charge at the scene is in charge--the FBI agent on the scene 
for DOJ is in charge. I mean, it is really, to me, frustrating, 
outrageous that the two departments didn't work that out long 
in advance of a disaster striking so that when you went, you 
would know exactly what your authority was, and so would the 
lead person for the Department of Justice.
    The other thing I want to do is to thank you for your 
candor, both in the interview that you had with our staff prior 
to testifying today, because unless we have that kind of 
candor, we are not, as a Committee, going to be able to 
understand exactly what happened, and neither we nor you all in 
the Department of Homeland Security are going to be able to 
make it better.
    You in the interview with our staff, I think, made some 
very important points, some of which you have spoken to 
already, today. You told our investigators that ICE had not 
prepared for Katrina because it had not been designated in 
advance as a response agency under the NRP. I am going to quote 
from page 108 of the transcript of your interview with our 
staff: ``While the NRP may call on DHS, it didn't call on ICE. 
And I think ICE stepped up and took on a role that nobody 
defined for us up until that point''--which was Katrina. 
``Nobody told ICE, `This is your role.' '' I mean, that is 
really incredible and unacceptable.
    I want to read from some of your comments in that interview 
with regard to the NRP, on page 8. ``I had a fleeting 
familiarity with it. To be honest, it wasn't something that was 
high on my radar screen with my particular responsibilities.'' 
Obviously, you were doing other things.
    On page 35, during your first 3 days in Baton Rouge, ``A 
lot of it seemed to be in a foreign language because the whole 
National Response Plan had a language all its own, which I had 
never heard up until that point.'' That is correctly a quote 
from you, am I right?
    Mr. Vanacore. That is correct.
    Senator Lieberman. Thanks. When you were put on stand-by on 
September 2, which was Friday after the hurricane hit, ``I was 
told that I would probably be going down in some capacity for 
ICE, but nobody was sure what that capacity would be.''
    As of September 3, which is Saturday, ``I still didn't know 
what my role would be, but I did know that I was to coordinate 
the ICE efforts, to work with the Federal Protective Service 
and the ICE agents who were on the ground to make sure that we 
had a flow of information back and forth.''
    And then at page 33 and 34, with respect to the question of 
who was the lead agency for the Federal Government in charge: 
``No one had stepped up to take the lead. There was nobody 
who's stepping up to say, `I'm in charge,' and I don't think 
that any of us had the authority to step up and say, `I'm in 
charge.' Hence, I think the need for some sort of 
designation.'' Correct?
    Mr. Vanacore. Correct, sir.
    Senator Lieberman. Page 50, processes were not in place for 
coordinating the chains of command among State, local, 
military, National Guard personnel; page 89, that as of 
September 6, 2 days after your arrival, you did not know 
whether you were there ``to coordinate ICE or to coordinate all 
of DHS.'' Right?
    Mr. Vanacore. Correct, Senator.
    Senator Lieberman. Thank you. And of ICE, you said, ``I 
think we're primarily a law enforcement investigative agency.'' 
And that is certainly what we think of you on this Committee. 
``That is where our focus is. We do investigations. We really 
did not, up until that point, have a focused role in a natural 
disaster response.'' That is at page 8. I am going to ask you 
to speak a little more about that, if you would.
    Mr. Vanacore. Sure, Senator. Basically, as you know, 
Immigration and Customs Enforcement, we have 6,000 Federal 
investigators, 1811 series, that investigate crimes. We have 
the Federal Protective Service, which does have a role, and a 
big role, in the ESF-13 and in disaster response. But my 
particular background was as an investigator.
    As an investigator, our training doesn't focus on local 
policing, which is what the response ended up being. So we were 
doing something that we really hadn't been prepared for prior 
to that. I think with all that we stepped up and still did what 
needed to be done, but I don't think it was something that any 
of us thought would be a defined role for us under Homeland 
Security.
    Senator Lieberman. Yes, and were you actually performing 
law-and-order functions there?
    Mr. Vanacore. We were patrolling with the New Orleans 
Police Department, we were patrolling the streets, and we were 
doing search and rescue--both.
    Senator Lieberman. Right. And then, finally, at page 108, 
you indicated that you--and correct me if I am not quoting you. 
You do not think ICE investigators should fulfill this function 
because, ``I think we''--meaning DHS--``have uniformed people 
who would be much better equipped to respond to that sort of 
thing than taking ICE investigators.'' Correct?
    Mr. Vanacore. Well, it was my opinion that we were better 
served with the FPS people who were in uniform and perhaps the 
Border Patrol people, who are also uniformed and were trained 
in patrol functions, as opposed to investigators.
    Senator Lieberman. That is a very important point because 
the ICE personnel that were there are not uniformed personnel.
    Mr. Vanacore. That's correct, Senator.
    Senator Lieberman. So that when you were helping the New 
Orleans Police patrol, they were not in uniform.
    Mr. Vanacore. Other than the Federal Protective Service, 
who are uniformed.
    Senator Lieberman. Correct.
    Mr. Vanacore. The investigators are not. Plainclothes 
force.
    Senator Lieberman. Correct. I thank you for that.
    Do you know at this point whether there has been any post-
Katrina clarification within DHS of either ICE's role in 
disaster-related law enforcement function, public safety 
function, or the designation of anybody else in DHS to play 
that role next time around?
    Mr. Vanacore. I know they are doing some type of lessons 
learned. I have been called in to the ICE people who I think 
were submitting things up to the Department on lessons learned. 
So I assume there will be a report coming out in the future on 
what our role will be.
    Senator Lieberman. OK. I thank you again for what you did 
in a very tough situation, and it is really disappointing not 
only that it was not done before Katrina hit landfall, but, 
frankly, that it seems like not that much has been done since. 
Again, we will want to ask the folks in the Department when 
they come in later.
    Mr. Kaiser, thanks for being here. Am I correct that you 
ended up involved in New Orleans, basically, as a result of 
your volunteering, your calling?
    Mr. Kaiser. Yes, sir. I'd been assigned not only as the SAC 
in New Orleans from 2001 to 2003, but I also served as a first 
office FBI agent in 1982 through 1984. So I had a lot of 
friends in numerous departments and Federal agencies down there 
and also the FBI office there.
    Senator Lieberman. So that when you saw, obviously, the 
disaster that had occurred, if I understand correctly, you got 
on the phone or maybe you e-mailed Director Mueller and said 
you were prepared to go down if necessary?
    Mr. Kaiser. Yes, sir, I did.
    Senator Lieberman. And then am I right that he got back to 
you almost immediately and asked you to get there as soon as 
you could?
    Mr. Kaiser. Yes, sir.
    Senator Lieberman. And then you got in your own vehicle and 
drove down there.
    Mr. Kaiser. Yes, sir. The reason why I drove down there, we 
tried to get flights down to that region, and there were no 
flights available. We went through the travel service, what we 
usually do. The Bureau aircraft was tied up until 6 p.m. at 
night, and there were no landing lights in the city of Baton 
Rouge. So they couldn't fly me until the next morning, so the 
quickest way to get down there was to drive all night, which I 
did with three other agents that drove with me.
    Senator Lieberman. From Boston?
    Mr. Kaiser. Yes, sir.
    Senator Lieberman. And that was Monday night?
    Mr. Kaiser. No, sir.
    Senator Lieberman. Or was it Tuesday?
    Mr. Kaiser. I left Wednesday about 3 o'clock and got there 
Thursday in the morning.
    Senator Lieberman. Right. And was Special Agent--first off, 
I admire you greatly and appreciate that you took that 
initiative yourself. And that was, am I right, from our staff 
record, a 26-hour drive?
    Mr. Kaiser. Yes, sir, it was.
    Senator Lieberman. When you got there--I just want to make 
it clear--was Special Agent Wolf there already?
    Mr. Kaiser. No, he was not. Special Agent in Charge Wolf 
did not arrive until Sunday evening, September 5.
    Senator Lieberman. Right. So at that point you were 
effectively the lead agent for the Department of Justice?
    Mr. Kaiser. I was the tactical and crisis management 
coordinator for the FBI.
    Senator Lieberman. Right. I accept that.
    As far as you know, was anyone else on scene playing the 
lead officer role for the Department of Justice at that point 
when you arrived?
    Mr. Kaiser. Yes, sir, there was. There was a Special Agent 
in Charge of Alcohol, Tobacco, and Firearms. His name was Jerry 
Tate. He was there. And there was also two Special Agents in 
Charge from DEA. There was Jim Craig from the Houston Division 
and Billy Renton, who was the DEA SAC in New Orleans that was 
there.
    Senator Lieberman. Let me ask you this in terms of the NRP, 
and I suppose it would be unusual if you had had any 
involvement in the discussions in the Department of Justice or 
FBI about how to handle responsibilities under the NRP because 
you were up in Boston. But I just wanted to ask you, did you 
prior to the Hurricane Katrina landfall?
    Mr. Kaiser. Am I familiar with the NRP?
    Senator Lieberman. Yes, and--well, I guess I will ask you 
that first. Were you familiar with it at that point?
    Mr. Kaiser. Yes, sir. I was trained by DHS as a Principal 
Federal Official, and in that training, I received training in 
the NRP.
    Senator Lieberman. And that was earlier in 2005?
    Mr. Kaiser. I believe it was 2004. In the fall of 2004, I 
received that training.
    Senator Lieberman. OK. So it probably was under the 
predecessor to the NRP.
    Mr. Kaiser. Right.
    Senator Lieberman. But you had a similar role. But you had 
not been involved during 2005 in any discussions at national 
FBI or Department of Justice about how the Department would 
handle their responsibilities under the NRP?
    Mr. Kaiser. We received training on the NRP, but 
personally, I didn't deal on a day-to-day basis with the NRP.
    Senator Lieberman. Right, or this question I am trying to 
get at as to whether anybody in DOJ was getting ready for a 
disaster if it occurred. I appreciate that you got the 
training, but, again, it is not clear to me, from what we see, 
lines of authority were clear.
    I want to just quickly refer you to Exhibit P in the 
book,\1\ and on the third page of that exhibit. This is a memo 
dated September 1, 2005, which was the Thursday of the week of 
the hurricane hitting on Monday, to Ted Ullyot, Office of 
Attorney General, and Bill Mercer, Office of Deputy Attorney 
General, which comes to us from Mr. Mercer's files. And it 
appears to be a memo written on that day which is a kind of 
briefing on DOJ's responsibilities under the NRP. And on it, 
somebody has written in the margins, ``Who activates?'' On the 
last page next to the caption ``Responsibilities: ESF 
Coordinators, Primary Agencies,'' someone has written in the 
margin, ``How are these designated and by whom?'' We would 
assume that is the handwriting of the Principal Associate 
Deputy AG Mercer, but we have not been able to get a response 
to our questions as to whether that was his handwriting. But 
let me just say we have the same question, which was who was in 
charge and who determined which agency between DOJ and DHS had 
the lead for carrying out the law enforcement responsibilities.
---------------------------------------------------------------------------
    \1\ Exhibit P appears in the Appendix on page 122.
---------------------------------------------------------------------------
    I don't expect you to be able to know, unless you happen to 
know Mr. Mercer's handwriting, whether that is his writing. But 
the point I want to make, even though you have been through the 
training, is I presume you were not in a position to answer 
that question about who activates the FBI and DOJ's role under 
the NRP or who decides who has what responsibilities.
    Mr. Kaiser. No, sir, I was not.
    Senator Lieberman. Thanks, Special Agent Kaiser. My time is 
up, and I look forward to more questions on a second round. 
Thank you very much.
    Chairman Collins. Thank you. Senator Levin.
    Senator Levin. Thank you, Madam Chairman.
    Mr. Riley, let me ask you questions about the 
communications capabilities, the interoperability, the lack of 
interoperability, a number of questions relating to loss of 
communications.
    In what specific ways did the loss of communications 
capabilities negatively impact the ability of first responders, 
Federal authorities, and the National Guard to respond?
    Mr. Riley. Well, it was a tremendous hindrance, and the 
fact that myself or any of the other chiefs, we could not 
command or give directions or instructions to our commanders 
that were out in the field. We could not communicate with 
Federal authorities or any adjacent law enforcement agencies. 
So it was, in fact, the primary cause of all of the 
dysfunctions throughout this entire event.
    Senator Levin. How would the response been different, if it 
would have been, if Federal, State, local authorities, and the 
National Guard had interoperable communications? In other 
words, was this mainly a problem of lack of interoperability, 
or was it mainly a problem that the batteries went dead and the 
electricity went out?
    Mr. Riley. No, the problem with our communications systems 
was that one of our towers, due to damage from the wind, one of 
the microwave--it damaged the microwave dish as well as the 
generator. This tower was in the Central Business District. It 
is on a building that is 44 stories high. That generator was, 
in fact, repaired by an engineering company, and two of our 
people who had to walk 44 flights of stairs, bringing fuel to 
the generator, as well as working on it and maintaining that 
every day once we were there. But when that tower went down, it 
forced us to go to a mutual aid channel. This mutual aid 
channel was a talk-around channel that after a couple of days 
allowed us to actually transmit. But it was radio to radio, and 
it could only transmit to a distance of 1 to 3 miles, depending 
on what type of obstacles were in the way. So it was only 
direct communication.
    The problem with that was not only were our police officers 
on that channel, so was Jefferson Parish, an adjacent parish. 
So the ability to talk was hindered because there was so much 
traffic once it went down.
    Senator Levin. So that if that tower had stayed up, there 
would not have been a problem that would have been caused by 
lack of interoperable equipment?
    Mr. Riley. Well, it still only allowed--it is still a lack 
of interoperable equipment, yes.
    Senator Levin. So now if that tower had stayed up, how 
would the lack of interoperable equipment have been a problem?
    Mr. Riley. Well, it would not have assisted us as it 
relates to interoperability with the Federal agency. That would 
not have assisted us. It would have only assisted us with the 
ability to communicate to our own people and to our adjacent 
parish, Jefferson Parish. We still would not have had the 
ability to communicate with the Federal authorities.
    Senator Levin. Published reports indicate that 
communications capability suffered because some first 
responders in New Orleans were using radios that would only 
accept rechargeable batteries. When these batteries lost power, 
there was no way to recharge them because of the electricity 
shortfall. Was the possibility that New Orleans would totally 
lose power as a result of a catastrophic event like Katrina 
ever considered so that there would have been back-up batteries 
rather than relying on rechargeable batteries?
    Mr. Riley. Those batteries did not have a major impact. It 
did impact us to some degree, but that was rectified shortly 
after because we had generators, we had terminals that would 
house or charge anywhere from 15 to 20 batteries. So our radio 
shop came out. We were able to get that up and running within a 
day or so. But that wasn't the real issue. The tower was the 
real issue.
    Senator Levin. Were you present at the Superdome either on 
Monday or Tuesday when the mayor discussed the city's needs for 
assistance with FEMA officials?
    Mr. Riley. No, I was not.
    Senator Levin. Were you aware of any requests from the city 
of New Orleans for assistance in providing food and water to 
the Convention Center?
    Mr. Riley. No, I was not. The Convention Center was never a 
part of the original plan. That evolved. On day two, our 
headquarters, for instance, on that Tuesday, our basement had 
16 feet of water. Our first floor had 3 feet of water. We had 
to evacuate our headquarters, which was almost 400 police, 
civilians, and family members. We had to evacuate by boat. We 
had to shut down headquarters. And one of our officers 
recommended that we go to the Convention Center to house those 
people, those officers as well as those civilians from 
headquarters.
    That officer went over and attempted to get that for 
housing, which the officials from the Convention Center did 
eventually agree to do later that evening. Now, this is on 
Tuesday. We were actually getting that for police officers. I 
believe that OEP or the mayor also had requested the Convention 
Center, that it be used.
    The problem was that we could no longer bring people to the 
Louisiana Superdome because the water was 4 to 4\1/2\ feet 
around the Superdome. So we needed another location. Initially 
it was for police officers, but hotels began to basically eject 
citizens from the hotel because they were short on staff and 
other reasons. So we had citizens from all around this country 
who were now stranded on the street, and we began to then 
direct them to the Convention Center.
    So it evolved. Initially it was only for 300 or 400 people, 
but over about a 30-hour period, they had 12,000 or 14,000 
people there.
    Senator Levin. I take it you were not present at the State 
Emergency Operations Center in Baton Rouge on Wednesday when 
General Honore met with Governor Blanco. Is that correct?
    Mr. Riley. Correct.
    Senator Levin. You were not there. Do you have any 
understanding as to whether and when the State requested 
Federal active-duty troops?
    Mr. Riley. No, I do not know when that happened, but if I 
remember, sometime on Wednesday it was my understanding that we 
would have troops that were coming in very soon. I don't know 
how the request came about.
    Senator Levin. All right. Or whether there was any 
misunderstanding or problem relative to that?
    Mr. Riley. I am not aware of that.
    Senator Levin. There were media reports on Wednesday of a 
large number of people at the Convention Center without food or 
medicine. The Convention Center was not secured until late 
Friday morning, and food and water were not provided until 
Friday afternoon.
    From your perspective, what took so long since everybody 
knew the Convention Center had a major problem Wednesday night? 
What was the reason from your perspective for that delay?
    Mr. Riley. I have no idea. I can tell you our toughest 
times among the men and women of the New Orleans Police 
Department was that we expected assistance quickly.
    Senator Levin. From?
    Mr. Riley. From the National Guard, from Federal 
authorities. Now, the FBI and Homeland Security did come in. 
Their officers did assist. But as it relates to food and water, 
those requests were made because, when I checked with OEP 
concerning food and water for the Convention Center, they 
stated that a request was made. We expected that food, I 
believe on Wednesday evening or Thursday. It was not until the 
military came in on Friday. We assisted them with setting up a 
perimeter. And even with setting up that perimeter, it still 
took several hours for the food to arrive, and that was a very 
difficult time to watch our citizens with no food, no water, 
and a very bad situation.
    Senator Levin. You say you expected the Guard and the 
active-duty military to come in before Friday. What was that 
based on? Did someone tell you they were coming in on Wednesday 
or on Thursday?
    Mr. Riley. No, we knew that the President had signed that 
disaster declaration, I think 24 or 48 hours before. Based on 
information from OEP, being in meetings in City Hall where our 
original OEP was, and talking to some National Guard people, we 
expected a large number of National Guard soldiers to come in.
    Now, on that Tuesday night, I believe Louisiana National 
Guard from northern Louisiana came in--I don't know how many it 
was--and some National Guardsmen came in the next day from 
Oklahoma. So they did come in.
    I do have to state one thing, and hopefully I am not 
getting off track. The National Guard from, I believe, northern 
Louisiana came in, and it is not in any of my statements, but 
we had about 600 or 800 people on the interstate that had been 
pulled from water over a 2-day period. It was 2 o'clock in the 
morning, and we requested--it was requested by one of our 
lieutenants that we get transportation to get them off. And 
there was a Guard unit by the Convention Center with at least 
30 or 40 trucks that we requested to assist us in getting 
citizens off that bridge. And the general who commanded that 
unit as well as a colonel denied that request.
    Senator Levin. Was that the Louisiana National Guard?
    Mr. Riley. I believe they were from--they said they had 
just driven--drove in from northern Louisiana, so 5 hours from, 
I believe, Natchitoches, Monroe, somewhere in northern 
Louisiana. But I have to say that was a disappointment because 
they were there and we did not get that assistance.
    There was a liaison in City Hall, in OEP, from the National 
Guard, who I believe--that advised us that we would have 
assistance from the National Guard. We did not know the 82nd 
Airborne were actually coming in until a few hours before they 
landed. And when they came, they were outstanding when they 
arrived.
    Senator Levin. The failure of the Guard to respond to that 
request, I take it when you say it was a disappointment, that 
is probably an understatement in those circumstances?
    Mr. Riley. I can tell you when I met with probably 100 to 
200 officers, it was probably the first time that I probably 
broke down a little bit because I advised them it looks like 
we're on our own, that we have to do this on our own.
    Senator Levin. Thank you. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Warner.
    Senator Warner. Thank you, Madam Chairman.
    Let me pick up on that because we have had, under the 
leadership of our distinguished Chairman and the Ranking 
Member, a remarkable series of hearings here, and we are still 
trying to get all the facts that are helpful to guide us for 
the future. But generally speaking, I have felt that the 
testimony, which reflected on the participation by the 
uniformed individuals, both the Guard and the active forces, 
that they tried to fulfill their missions as best they could, 
and on the whole they did a reasonably good job, if not a 
splendid job professionally. You pointed out one disappointing 
chapter, but can you speak in generalities as to your 
impression of the contribution made by the Guard, whether they 
are Louisiana Guard or Guard from many other States, that came 
and responded together with the active forces?
    Mr. Riley. I would have to say overall that the National 
Guard from Oklahoma, Puerto Rico, Louisiana, that they did in 
fact do an outstanding job. The young Guardsmen were 
enthusiastic, energetic, and were more than willing to help. 
Some of the delays were with the command staff not being able 
to make an instant decision, and some of those decisions 
unfortunately took several hours. But other than that, when the 
National Guard performed, they were in fact very good.
    Senator Warner. I cannot speak to knowledge about the 
indecision, but I do understand the military quite well. They 
were probably waiting for clarification from a higher level 
authority to execute their orders. I know General Honore, who 
we will be privileged to have as a witness here--I believe it 
is on Thursday--in my one visit down there I had the 
opportunity to speak with him, and I watched him, as did all 
America. I think he discharged his duties, and I think at times 
he did not try to get too much guidance from up above, he made 
his decisions there on the ground like a fine military 
commander that he is, and we are very proud of him.
    Back to the question raised by my distinguished colleague, 
Senator Levin. Senator Levin and I had the opportunity, as you 
did, to meet with the Commander of NORTHCOM when he visited 
here a few days ago. I spoke with him about--he is the 
Commander, as you know, of all the military forces in the 
United States that lend assistance under these situations, that 
is, the active forces. We talked specifically about 
communications, and he left with me a request for some funds 
which I will, in consultation with my colleague from Michigan, 
the Ranking Member of the Committee on Armed Services, we are 
going to address the authorization and, hopefully, the eventual 
appropriations of a package of communications equipment, such 
that if this Nation is faced with a similar problem, the 
military will at least have pieces of equipment that can come 
in, and do not rely in any way on local power sources or local 
antennas. It can be put up and provide communication to all 
those who have access to that system.
    But when the military came in, they, obviously, brought 
such equipment as they had for communication. Were you able to 
access that?
    Mr. Riley. I can tell you that we had some mobil 
communications systems that were set up in various parts of the 
city that did improve our ability to communicate, but, honestly 
I don't know where they came from. They could have been 
military.
    Senator Warner. To a different question. One of the issues 
that the Congress is looking at, as well as the Executive 
Branch, is the age-old doctrine of posse comitatus. I address 
this question to both Mr. Kaiser and Mr. Riley. And as you may 
know, that is embedded in the laws of the United States from 
about the middle 1800s to this point in time. It simply states 
that the men and women of the armed forces, the active armed 
forces, as distinguished from the National Guard, the active 
armed forces are, for historic reasons and valid reasons, not 
authorized to participate in local law enforcement.
    In this situation we learned an awful lot, and we had times 
when the uniformed National Guard were working with units of 
the uniformed regular forces. And to some extent, there were 
occasions that they were involved in trying to assist local law 
enforcement officers in carrying out their missions as law 
enforcement officers. The Guardsmen were able to render such 
assistance as the local law enforcement either asked for or 
they performed on their own initiative, but the active forces 
had to literally stay at a distance and not involve themselves 
pursuant to longstanding law and regulation.
    Did you know of any instances where that posed a problem 
when the active forces were not able to actively work with law 
enforcement in carrying out their duties?
    Mr. Riley. I can tell you there were several situations 
where the 82nd Airborne, they would see things and hear things 
in certain locations that they were guarding or protecting, and 
they would have to call us. And then when NOPD would arrive 5 
or 10 minutes later, that situation had dissolved or that 
person had disappeared. There were times when those soldiers 
wanted to respond to things, but could not respond.
    Senator Warner. When you say ``things,'' we are preparing a 
record and people are following this. ``Things'' meaning what 
appears to be violations of local law.
    Mr. Riley. Well, people were looting or breaking into a 
place, where they would call and advise us because they could 
not----
    Senator Warner. You mean the uniformed 82nd would call and 
advise you that we are witnessing infractions of local law.
    Mr. Riley. People breaking into a building or something 
like that.
    Senator Warner. Right.
    Mr. Riley. I think in a situation such as this, one of this 
magnitude, it certainly would help if they could in fact take 
action.
    Senator Warner. So there were times when they were in a 
position, the regular forces, to observe breaches of law, and 
had they had the authority to respond, they might have been 
able to step in and alleviate that situation or contain it 
until the arrival of either the Guard or local police?
    Mr. Riley. Yes.
    Senator Warner. And it is your professional judgment, if 
they had the ability to get a waiver, given the extenuating 
circumstances of this, it would have been helpful?
    Mr. Riley. Yes, sir.
    Senator Warner. That is very interesting.
    Mr. Kaiser, can you amplify on this at all in your 
experience?
    Mr. Kaiser. Well, sir, I would say that's a subject that's 
been debated quite a bit. But I would tell you that we did have 
those discussions with the U.S. Attorney there in the Eastern 
District of Louisiana and the Middle District of Louisiana, and 
there were some concerns about U.S. soldiers who were not 
trained in law enforcement functions performing law enforcement 
functions.
    Senator Warner. You are talking about the regular Army and 
not the National Guard?
    Mr. Kaiser. Right. Now, the National Guard does have, in 
fact, some detachments, such as military police, that their 
full-time job is a police officer for a town or a State. There 
was less concern about that, but full-time military. There was 
concern that they weren't trained in law enforcement and it 
might create some problems.
    Senator Warner. Back again to your original observations. 
You all discussed the posse comitatus doctrine with the U.S. 
Attorney, which is quite appropriate.
    Mr. Kaiser. Right.
    Senator Warner. And you were advised that the regular 
forces could not participate in law enforcement. I guess my 
question is, do you have an opinion similar to that of Mr. 
Riley, where regular Army were at a place to observe crimes 
taking place, but there were no associated units of either 
Guard or local police, and had they had the authority to step 
in, they might have been able to curtail some of the looting 
and other things?
    Mr. Kaiser. My opinion, and certainly not the FBI's, but my 
opinion that if a crime was committed in their presence that 
they observed, yes, it would have been beneficial if they could 
have made the arrest, instead of having to call the NOPD or 
other agencies.
    But beyond crimes committed in their presence, I personally 
would have some concerns over that.
    Senator Warner. I think that answer is very helpful. I 
thank the Chairman.
    Chairman Collins. Thank you.
    Senator Levin. Will you yield for one minute? I just want 
to applaud Senator Warner on the initiative that he made 
reference to in the Armed Services Committee, and I will join 
him in his leadership on that. I would point out, as I think we 
all know on this Committee, that both Chairman Collins and our 
Ranking Member have worked hard and indeed succeeded in getting 
a significant authorization for interoperable equipment for 
first responders. So between that success that they have had 
and the leadership that they have shown for the first 
responders and the program which you have just outlined, I 
think, hopefully, that there will be some real significant 
improvement on the interoperability, but I just wanted to both 
thank our Chairman and Ranking Member for the leadership that 
they have shown here, as well as you.
    Senator Warner. I thank my colleague. It will be a joint 
decision that you and I have to make because it is not in the 
President's budget, and we have to get it in.
    Senator Levin. That is not what we will call ``pork.''
    Senator Warner. No. Thank you.
    Chairman Collins. Mr. Riley, I just want to follow up on a 
few issues that have been raised. We had testimony last week 
from Mayor Nagin about his decision to open the Convention 
Center on Tuesday, August 30, and Senator Levin referred to the 
fact that neither food nor water were pre-staged at that 
location.
    What I want to ask you about is security. When the Mayor 
made the decision that because of conditions at the Superdome 
he was going to open the Convention Center, did he talk to you 
first about how security could be provided?
    Mr. Riley. No, the Mayor did not talk to me directly. I 
believe he talked to Colonel Ebbert, if I remember correctly, 
and Colonel Ebbert inquired on how would we secure the 
facility. So I believe, if I remember correctly, it came from 
Colonel Ebbert.
    And what we initially had done was to send 35 officers from 
our 8th District, which is not far away from the Convention 
Center, and a couple of days later we added 40 officers from 
the 3rd District.
    Chairman Collins. Initially at least, those officers were 
staged outside the Convention Center.
    Mr. Riley. Yes.
    Chairman Collins. Could you explain that to us? It seems 
that you would want to have them inside where the evacuees 
were.
    Mr. Riley. Well, we didn't. What we did was we had a SWAT 
team that made routine patrols through the Convention Center, 
periodic patrols through, and also when there was a complaint. 
Sometimes people would call in once cell phone service was back 
up, call in and state that there were certain types of 
incidents that went on.
    We did not stage our officers there because we did not have 
a significant enough--our Convention Center, I believe, is the 
second or third largest Convention Center in the world. It 
would be impossible for us. We would have needed probably 400-
500 officers to cover that entire situation, and in fact, 
because there were so many people in there and it was spread 
out so far, it wouldn't have been a wise decision for us to put 
officers inside, but we did in fact have them outside just 
across the street, and that was a decision I made.
    Chairman Collins. As we discussed earlier, there were 
reports of crimes that turned out not to be true.
    Mr. Riley. Yes.
    Chairman Collins. I am not asking you to comment on media 
comments made by your predecessor, but suffice it to say that 
those, in some cases, exacerbated the rumors that were flying 
around by giving them credence. The rumor to control or the 
failure to control these rumors had true consequences. They 
led, for example, to FEMA's decision to withdraw its medical 
teams from the Superdome. In another situation, they led to 
FEMA's decision to temporarily suspend its search and rescue 
mission at a critical time. Now, one can criticize FEMA for 
making those decisions, and indeed, I have, but the fact is 
that if there had been a better situational awareness of what 
the crime situation was, neither of those actions would have 
been taken.
    In the future, what do you think should be done to control 
the rumors of lawlessness that occurred in the situation in New 
Orleans?
    Mr. Riley. Well, what we actually did, once we learned that 
the rumors were rampant--because we didn't have radio, 
television--my first time, actually, hearing about some of 
those rumors was actually my daughter calling me from Houston, 
saying that, ``Daddy, leave. You're going to get killed,'' and 
other rumors, that our police were being shot at.
    What we will do in the future, and what we should have in 
fact done this time, but it was very chaotic, is we should have 
a press conference two to three times a day to put our own 
message out, to ensure that the public, the citizens, the 
world, whoever is watching, that they know exactly what's going 
on and not be confined to listening to rumors.
    Chairman Collins. I absolutely agree, and I think that 
would have really helped in the situation. One final question 
for you. You were facing a situation where although many of the 
reports of violent crimes fortunately proved to not be true, 
there was considerable looting. You did not have a jail to put 
the looters in once they were caught and arrested. What did you 
do when looters were arrested?
    Mr. Riley. Well, in the early stages, the looters were 
basically--the property was taken and warehoused. The looters' 
names were in fact taken in most of those cases, and we will, 
in fact, turn that over to the District Attorney's office. We 
will put some of those subjects out wanted based on the 
information that we have on them.
    But about 4 or 5 days, or maybe 3 or 4 days later, I 
actually assigned Captain Bryson to begin looking for a 
facility where we would begin to house people. One of the 
majors of the department, Major Burkhardt, contacted the 
Department of Corrections, the State Department of Corrections, 
and they actually came in and took over an Amtrak bus station, 
fenced it, and we then began to house arrestees. But this, 
unfortunately, probably was--I'm guessing, I don't remember--
probably 6 or 7 days later.
    Chairman Collins. Initially, if the individual was not 
caught committing a violent act, but was just looting--I mean 
looting is terrible--did you have any choice but to let them 
go?
    Mr. Riley. At that point we did not, and if a person 
committed a violent act, then we contacted adjacent parishes to 
see if they could in fact hold the arrestee.
    Chairman Collins. I think that's another lesson learned 
from this catastrophe, is that we need to anticipate the need 
for a back-up facility out of the flooded area. You would agree 
with that?
    Mr. Riley. Yes. I agree. I think that we have to--it 
depends on where the storm comes from. That could be 5 miles 
away or it could be 150 miles away. It really depends on the 
devastation.
    Chairman Collins. Mr. Kaiser, just one final comment and 
question for you. Senator Lieberman and I, being from New 
England, have been struck by how many of the emergency response 
team members from various agencies were sent from New England 
to Louisiana. We had Phil Parr from FEMA Region I in New 
England. We had Marty Bahamonde, who was the first person on 
site in New Orleans, who was sent from Boston. We have your 
situation where you had some previous experience, unlike many 
of the other players. While we are convinced that people from 
New England have special qualities that enable them to adapt to 
any situation, it does raise an important point.
    You told our investigators that, ``You have to bring people 
down that are familiar not only with the area, but the culture, 
too. You have to know people, and they have to trust you if you 
want to get anything done down there.'' I think that is true of 
most regions in the country.
    So my question is, as part of our recommendations, should 
we have teams that know the area, have either lived there, live 
there now or served there, ready to go when a catastrophe 
strikes, so that you are not cobbling together individuals, 
regardless of their expertise, but cobbling together teams from 
all over the country, who may not know the geography, the 
decisionmakers, the local customs. Would it be better to have 
these teams that were either sited in the region or at least 
had experience with the region?
    Mr. Kaiser. Well, my opinion, yes, it would be. When I 
arrived down in New Orleans and in Baton Rouge, I was familiar 
with Warren Riley, the former chief also of NOPD, Eddie 
Compass. I knew the colonel in the State Police. I knew the 
head of Homeland Security there for the city, Terry Ebberts. So 
I knew most of the Federal agency heads there, so I was very 
familiar with those individuals. And they knew me because I had 
served down there on several occasions, so it made an easier 
transition for me to come in there and help them out.
    So, yes, to answer your question, I absolutely think it 
would be beneficial to have someone from the area that knows 
the area and the people down there that he's going to be 
dealing with.
    Chairman Collins. Thank you.
    Mr. Vanacore, my final comment to you is I want to 
acknowledge the fact that you delayed or gave up a trip to 
China in order to be here today, and ironically, the last time 
you were supposed to go to China, Katrina hit.
    Mr. Vanacore. Correct.
    Chairman Collins. And you were unable to go then as well. 
We hope you do not consider testifying before us to be the kind 
of catastrophe that Katrina was, but we look forward with 
interest to know when your next trip to China is scheduled. 
[Laughter.]
    Mr. Vanacore. I'm not sure I should comment on that. 
[Laughter.]
    Chairman Collins. I think you are right. Thank you for your 
testimony.
    Mr. Vanacore. Thank you.
    Chairman Collins. Senator Lieberman.
    Senator Lieberman. Thanks again, Madam Chairman.
    Superintendent Riley, thanks very much for your testimony 
today. Thanks for your service during the storm and since to 
New Orleans. Your opening statement was very powerful, and it 
really brought me--and I know Chairman Collins, based on what 
she said--back to why we are here. Memories are short, but you 
reminded us of those officers stranded on rooftops, that 
Officer Abbott, really close to death, miraculously making his 
way through it, and a terrible lack of communications in the 
midst of all that, as you discussed with Senator Levin, with 
people calling those 911 calls, fear of drowning and death, and 
a limited ability to get done what you needed to get done. I 
just have great admiration for what you did in spite of and in 
the midst of all that.
    I have been asking everybody who has come from New Orleans, 
I want to just ask you for the record--you referred to it in 
your opening statement--exactly when did you know that the 
levees had broken in New Orleans on that morning of August 29, 
to the best of your recollection?
    Mr. Riley. Somewhere between 7:15 and 8 o'clock, something 
like that.
    Senator Lieberman. Do you remember how you heard?
    Mr. Riley. I was in communications, and actually, the 
citizens were calling in, but it was a police officer who 
stated that the levees had breached, the Industrial Canal levee 
had breached.
    Senator Lieberman. It was pretty early and that confirms 
the other evidence, information we have heard, although a lot 
of others, unfortunately, did not hear until later as the day 
went on. I wanted to ask you also, just so I understand 
clearly, at what point, if you were in a position to do this--
because you were not a superintendent at the time--did you 
express to anyone the fact that there was a desperate need for 
other law enforcement assistance, including from the Federal 
Government?
    Mr. Riley. We really didn't request other law enforcement 
agencies. We were counting on the National Guard and the 
military. But other law enforcement agents began to contact us 
and to contact the State Emergency Preparedness Center, 
requesting to come in, and then some, just came in.
    Senator Lieberman. Right. I am sorry, do you want to 
finish?
    Mr. Riley. No, I'm fine.
    Senator Lieberman. You did not yourself, you were not part 
of any specific request for Federal assistance that you recall?
    Mr. Riley. No. That would have come from Colonel Ebbert.
    Senator Lieberman. Right. Our Committee has found a letter 
dated August 30, which was the day after landfall, from Henry 
L. Whitehorn, Colonel Whitehorn, Superintendent of the Office 
of State Police. It is actually a letter to Robert Mueller, 
Director of FBI. It is very brief. I will read it. ``Dear 
Director Mueller, As you are aware, the city of New Orleans, 
Louisiana, suffered massive damage caused by Hurricane Katrina. 
We are currently utilizing all State assets to stabilize the 
situation. However, looting continues to be a significant 
problem. As the head of the Louisiana State Police, I am 
requesting any assistance you can provide to this agency to 
assist with this issue, to include deployment of available 
tactical teams.''
    Were you aware of that letter?
    Mr. Riley. No.
    Senator Lieberman. Agent Kaiser, did you know about that 
letter at all to Director Mueller on August 30 from 
Superintendent Whitehorn?
    Mr. Kaiser. I never saw the letter, but I was advised when 
I arrived in Louisiana, in Baton Rouge, and I made contact with 
the Colonel of the State Police, Colonel Whitehorn, that he had 
sent the letter.
    Senator Lieberman. That he had sent it. And again, that was 
on Wednesday that you arrived, or was it Thursday?
    Mr. Kaiser. Thursday.
    Senator Lieberman. Thursday you got there, Wednesday you 
left.
    Mr. Kaiser. Right.
    Senator Lieberman. On August 31, which would have been 
Wednesday, the Department of Justice reported to us in our 
conversations that the Special Agent in Charge of the New 
Orleans FBI Office, who you have mentioned, Jim Bernazzani, 
told the U.S. Attorney in Baton Rouge, David Dugas, that 
``3,000 armed troops'' were necessary to restore order. Were 
you aware of that communication at all?
    Mr. Kaiser. No, sir, I was not.
    Senator Lieberman. Were you, Superintendent Riley?
    Mr. Riley. No, sir.
    Senator Lieberman. We will come back to that. It does raise 
an interesting question in terms of the Federal response or the 
State response because Special Agent Bernazzani specifically 
says 3,000 armed troops, and that does not sound like--that 
sounds like the National Guard or the Federal active military, 
not ICE or ATF or anybody else from the Department of Homeland 
Security.
    I want to say for the record also that according to the 
Department of Homeland Security documents we have seen, no one 
who was fulfilling the ESF-13 function appeared in the State 
Emergency Operating Center in Baton Rouge before September 1, 
which was Thursday. Interesting scenario, by the end of the day 
Thursday, September 1, Agent Kaiser, there are now 45 total DOJ 
law enforcement personnel in New Orleans including 11 FBI 
agents. I do not expect you to remember exact numbers, but does 
that sound about right, to the best of your recollection?
    Mr. Kaiser. You know, I don't know. I could tell you on 
August 20, there were 64 TDY FBI SWAT personnel in New Orleans, 
FBI. And there were another 20 from the local field office. But 
I don't know the numbers that DEA or ATF or ICE had at that 
time, so that number doesn't sound correct.
    Senator Lieberman. Doesn't.
    Mr. Kaiser. No.
    Senator Lieberman. Interestingly, by September 7, our 
investigation shows there were 883. That is the following 
Wednesday, week and a half after landfall, 883 Department of 
Justice personnel in New Orleans providing operational support, 
but it did not get started until later. I mean, just to put in 
context my own frustration and disappointment about what the 
record shows, you, Superintendent Riley, mentioned before the 
presidential declaration of emergency, and I want to put this 
in context.
    We have the NRP issued in January 2005. It is a very 
comprehensive plan. It gives a whole host of Federal agencies 
various responsibilities in time of disaster, natural and 
terrorist. Unfortunately, as I have said earlier, the record 
that we have compiled shows that neither DHS, Homeland 
Security, or DOJ, Justice, did very much to get ready to assume 
its responsibilities.
    The President, on Saturday morning, August 27, 2 days 
before landfall, based on very serious warnings from the 
Weather Service and requests from the governors, declares a 
state of emergency. Under the NRP, that immediately becomes a 
so-called incident of national significance. So you would hope 
that at that moment DHS, DOJ, and the whole Federal apparatus 
would have swung into action and essentially would have done 
what the Coast Guard did, which prepositioned assets, waiting 
for landfall, ready to respond. The record sadly shows that did 
not happen, and I believe the testimony today confirms that. So 
that you, Superintendent Riley, and--notwithstanding the few 
who abdicated responsibility--the many on your force really 
behaved heroically, but you are left alone in an hour of 
crisis. That is a sad conclusion from the record.
    But I thank the three of you for heroic action. We are 
going to add you to our list of Katrina heroes, and thank you 
for it.
    Mr. Kaiser. Thank you.
    Mr. Riley. Thank you, Senator.
    Mr. Vanacore. Thank you.
    Chairman Collins. Thank you very much for your testimony.
    I would now like to call forward the second panel of 
witnesses. This panel consists of individuals with key roles in 
establishing and repairing the communications network in the 
greater New Orleans area.
    The first witness, Peter Fonash, is the Chief Technology 
and Programs Officer of the National Communications System of 
the Department of Homeland Security. In that role, he oversees 
the acquisition of priority communications service in the 
public switch network through the Government Emergency 
Telecommunications Service and the Wireless Priority Service 
programs.
    Colonel FG Dowden has served in the New Orleans Department 
of Homeland Security and Public Safety as the Regional Liaison 
for Communications Interoperability since 1994. He is 
responsible for developing and managing interoperability 
projects for the City of New Orleans, and he works in 
conjunction with three different parishes.
    William Smith is the Chief Technology Officer for BellSouth 
Corporation. In this role he is responsible for setting the 
technology direction of BellSouth's core infrastructure.
    I would ask that you three rise so that I can administer 
the oath.
    Do you swear that the testimony you are about to give the 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Fonash. Yes.
    Colonel Dowden. I do.
    Mr. Smith. I do.
    Chairman Collins. Thank you. Mr. Fonash, we will start with 
you.

    TESTIMONY OF PETER M. FONASH, Ph.D.,\1\ DEPUTY MANAGER, 
  NATIONAL COMMUNICATIONS SYSTEM, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Fonash. Thank you, Madam Chairman and Senator 
Lieberman. I am Peter M. Fonash, and I am honored to testify 
before you today. I am the Deputy Manager of the National 
Communications Systems (NCS). In my testimony today, I will 
explain the role that the NCS played in preparing for and 
responding to Hurricane Katrina and what we are doing to 
improve the response and recovery of the communications 
infrastructure today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Fonash appears in the Appendix on 
page 77.
---------------------------------------------------------------------------
    The NCS started under President Kennedy in the 1960s. The 
NCS is a consortium of Federal departments and agencies that 
have assets, resources, requirements and/or regulatory 
authority regarding national security and emergency 
preparedness, NS/EP, communications. The NCS assists the 
Executive Office of the President in ensuring NS/EP 
communications for the Federal Government under all 
circumstances.
    A key tenet of ensuring communications is reliance on 
resiliency and rapid restoration capabilities of the commercial 
communications infrastructure, necessitating strong 
relationships with industry.
    The NCS's National Coordinating Center for 
Telecommunications (NCC) is a joint industry/government body 
within the NCS. The operational mission of the NCC is the 
coordination of communications restoration efforts in an 
emergency. The NCS has a major communications role in the 
current NRP. The NCS is the lead agency for Emergency Support 
Function 2, ESF-2, which is the communications component of the 
NRP. The purpose of the ESF-2 is to ensure the provision of 
Federal communications support to Federal, State, local, 
tribal, and private sector response efforts during an incident 
of national significance.
    To facilitate coordination of industry/government 
operations during an emergency, the NCS has established and 
continuously operates several priority service programs, which 
help to ensure critical calls are completed in the event of 
congestion or damage to the national commercial communications 
infrastructure. The Nation heavily used each of these programs 
during Hurricane Katrina. These programs include the Government 
Emergency Telecommunications Service (GETS), the Wireless 
Priority Service (WPS) program, and the Telecommunications 
Service Priority (TSP) program.
    The NCS also manages another program, the Shared Resources 
High-Frequency Radio Program (SHARES), which provides voice and 
low-speed data communications independent of the commercial 
communications infrastructure.
    In anticipation of Hurricane Katrina, the NCS conducted 
various preparations including heightening the alert status of 
the NCC's 24-hour watch; placing key programs such as GETS, 
WPS, TSP, and SHARES on alert; providing personnel to staff 
ESF-2 regional offices and at FEMA headquarters; and conducting 
analysis of critical communications assets in the projected 
impact area.
    Industry worked equally hard to prepare. Companies moved 
emergency response teams and equipment to the region, 
established communication bridges among carriers, activated 
damage assessment teams, routed communications traffic around 
the expected impact area, and kept in constant communication 
with the NCC. BellSouth opened its operations center to all 
carriers for coordination purposes.
    As of August 28, 2005, the NCS was ready. All systems and 
personnel were in place for the ESF-2 elements to receive 
communications support requests from the States impacted by 
Katrina.
    Now our response. Katrina and the flooding of New Orleans 
caused unprecedented damage to the communications 
infrastructure. In the telecommunications sector, more than 3 
million phone customers were out of service. For the first time 
in history, switching centers were out of operation due to 
water damage. Numerous 911 call centers were down, and up to 
2,000 cellular towers were out of service. In addition, 
significant damage had been inflicted on first responder land 
mobile radio (LMR) communications. Significant network 
congestion and call blockage was being experienced in the 
disaster area. Millions of calls were being blocked daily.
    Fortunately, many emergency responders had GETS cards and 
WPS phones. During the early stages of recovery, over 32,000 
GETS calls were attempted, and 95 percent of the calls were 
completed where the commercial network remained in operation.
    At the NCC in Washington, industry identified three 
priorities to the NCS, security, fuel, and access. The NCC 
assisted industry by attempting the coordination of security 
requirements between industry and government to protect repair 
teams, communications sites, and staging areas. In addition, in 
a limited number of circumstances, the NCC arranged to provide 
communications carriers and broadcast companies with generators 
where the power was out, fuel for generators, and power outage 
maps. The NCS coordinated closely with FEMA and local 
authorities in an attempt to provide the carriers access to 
locations in need of repair.
    In the impacted areas, ESF-2 worked with State and local 
governments to help identify and provide solutions to their 
communications needs. ESF-2 arranged for mobile satellite and 
cellular vans and for hundreds of satellite phones. For 
example, we arranged for mobile communication vans to be sent 
on August 30, 2005, to the National Guard in Bogalusa, 
Louisiana, and Louisiana State Police in Kenner, Louisiana.
    Communications restoration was definitely slowed, 
particularly in New Orleans, by security issues. The NCC, 
working on behalf of the communications industry, attempted to 
solve three separate security related issues during the 
Hurricane Katrina response: Fixed-asset security, repair crew 
security, and fuel and logistics convoy security.
    While State and local authorities were able to meet some 
convoy security needs and Federal Marshals secured one 
important site, the NCC and ESF-2 were generally unable to 
arrange security for asset and repair crew security. ESF-13 and 
the National Guard were unable to assist in this regard. 
Industry's subsequent efforts to obtain private security were 
also hindered when State officials refused to allow out-of-
state security guards to operate without proper Louisiana 
licensing.
    As a result of the lack of security for repair crews, 
telecommunications companies were delayed by as much as a week 
and a half in commencing work on some areas in and around New 
Orleans.
    The storm's damage also left the industry with limited 
energy options. Although most companies had extensive plans in 
case of power outages, the lack of civil order, coupled with 
the extent of destruction, severely impaired companies from 
carrying out these plans. Fuel was imperative to keeping back-
up power generators for telecommunication sites and other 
critical nodes up and running. Power outages of critical 
communication facilities were prevented through cooperative 
sharing of fuel supplies among commercial communication 
companies.
    The lack of a commonly recognized credential for industry 
and the need for recognition and acceptance of the credentials 
by local jurisdictions also significantly slowed communication 
restoration efforts. The day after Hurricane Katrina hit, 
industry repair crews, ready to begin restoring services, could 
not obtain permission from officials to enter disaster areas, 
preventing vital services from being restored as quickly as 
they could have been. An apparent disconnect between Federal 
and State access authorization policies delayed crews and 
burdened incident management teams.
    Obtaining access to restricted areas for the communications 
repair crews remained problematic in Louisiana for nearly a 
month. Subsequent to the landfall of Hurricane Rita, ESF-2 was 
able to work out a blanket access letter in the State of Texas 
and, using that as a precedent, got Louisiana to allow a 
similar letter, thus finally achieving a state-wide solution in 
Louisiana.
    In conclusion, the extent of the destruction and damage to 
communications infrastructure and services caused by Hurricane 
Katrina greatly exceeded any other disaster previously 
encountered by the NCS. A hurricane of the historic magnitude 
of Hurricane Katrina stressed the processes and procedures of 
the NCS and required ESF-2 to perform new functions, such as 
performing interim land mobile radio repairs in eight parishes.
    Now that the NCS has completed its role in assisting with 
the restoration efforts, and with hurricane season only 5 
months away, and the ever-present need for preparedness, the 
NCS believes that prudence dictates that the NCS continue 
efforts to improve its ability to respond. We are identifying 
issues and lessons learned and developing recommendations. Our 
after-action sessions with other ESF-2 agencies and industry 
demonstrate our full commitment to incorporating lessons 
learned into future plans, procedures, and capabilities.
    Our goal is to look at both short-term and long-term 
improvements, focusing on what we can accomplish in advance of 
the 2006 hurricane season. In particular, the NCS is developing 
ESF-2 operational plan modifications with the ESF-2 support 
agencies. We are establishing standard operating procedures for 
both the primary and support agencies. Once these standard 
operating procedures are developed, we will conduct an exercise 
of ESF-2 functions in the mid-May timeframe to ensure the plans 
are thoroughly understood by those who will be part of any 
Federal response team. Where appropriate, it is hoped that 
participants will be from all levels of government and 
industry.
    We are working with other agencies, State Governments, and 
industry on security and access issues. We are working with 
ESF-13 and others to improve physical security mechanisms and 
to develop pre-approved emergency credentials for key 
infrastructure providers to facilitate industry restoration 
efforts. NCS is developing a pilot program with industry 
partners and the State of Florida to test screening and 
credentialing for the communications infrastructure.
    Other areas to be considered for improvement are: Improving 
required knowledge and skill sets of the response teams; 
increased level of exercises of all parties involved; and 
improved planning to expedite the acquisition of emergency 
communications capabilities.
    The NCS will continue to work with industry and government 
counterparts to improve the restoration of the Nation's 
communications network.
    This concludes my oral remarks. I have submitted a written 
statement for the record.
    Thank you for the opportunity to address this distinguished 
Committee. I will be pleased to answer any questions you may 
have.
    Chairman Collins. Thank you, and your full statement will 
be included in the record. Colonel Dowden.

   TESTIMONY OF COLONEL FG DOWDEN,\1\ REGIONAL LIAISON, NEW 
   ORLEANS DEPARTMENT OF HOMELAND SECURITY AND PUBLIC SAFETY

    Colonel Dowden. Madam Chairman, Senator Lieberman, by way 
of introduction, I am FG Dowden, and I currently serve as the 
Regional Liaison for the New Orleans Department of Homeland 
Security and Public Safety. In this position I represent the 
City of New Orleans, and I have worked for the last 2 years to 
develop and execute communications interoperability projects 
and issues with St. Bernard, Plaquemines, and Jefferson 
Parishes, which along with New Orleans make up Louisiana Urban 
Area Security Initiative (UASI) Region I.
---------------------------------------------------------------------------
    \1\ The prepared statement of Colonel Dowden appears in the 
Appendix on page 86.
---------------------------------------------------------------------------
    I want to thank you for the invitation to testify before 
the Homeland Security and Governmental Affairs Committee and 
the opportunity to assist your Committee and the Nation in 
improving our capability of communications interoperability and 
response to catastrophic events.
    Hurricane Katrina was a natural disaster that destroyed or 
damaged our communications infrastructure and made it extremely 
difficult, and in some cases impossible, to react and to 
coordinate the massive response and recovery effort brought on 
by the storm. Thousands of lives and property were put at risk 
because of the extensive damage and losses to the 
communications systems that were in use by various agencies 
within the respective parishes.
    The ability to communicate with State and Federal agencies 
in most cases was limited to a few land lines, satellite 
phones, and data links.
    Today I would like to provide you with information relative 
to the challenges to communications and communications 
interoperability prior to and during the storm and a status on 
where we are as we move forward.
    Prior to Hurricane Katrina, we had over 75 first responder 
agencies operating over myriad disparate voice radio 
communications systems within the region. The two-way radio 
spectrum ranged from your very basic simplex radios to more 
advanced VHF and 400 megahertz radios, to the even more modern 
and more sophisticated 800 megahertz trunked radio systems.
    Two parishes were operating systems that had far exceeded 
their normal service life and which challenged the best radio 
technicians to keep them operational on a daily basis. Day-to-
day operability was challenging, to say the least. 
Additionally, within those two parishes they were operating on 
several different types of proprietary systems, which in many 
cases could not communicate with each other. The other two 
parishes were operating more modern and technically 
sophisticated 800 megahertz trunked digital or analog systems. 
In the case of New Orleans, the city's 800 megahertz network 
supported police, fire, emergency medical services, and the 
Office of Emergency Preparedness over a common shared system. 
Jefferson Parish was supported by two 800 megahertz trunked 
radio systems, one of which supported the parish government and 
the other the sheriff's department. State agencies were 
operating on a different 800 megahertz trunked analog system, 
and Federal agencies were operating on VHF spectrum and other 
radio systems, depending on that particular agency.
    As you can see, in addition to the day-to-day operational 
issues, communications interoperability was extremely 
problematic. Recognizing these problems, New Orleans and 
Jefferson Parish law enforment had put in place console patches 
connecting their 800 megahertz controllers, and this provided 
some level of interoperability. Local agencies in coordination 
with Federal agencies and with support from a public service 
wireless network project had used bridging technology in the 
form of ACU 1000s to connect disparate radios from the 17 
local, State, and Federal agencies and to provide a level of 
interoperability.
    Recognizing the interoperability problems, the City of New 
Orleans had applied for and received a Community Oriented 
Policing Services (COPS) grant, which with the local cash match 
totaled $7.3 million. The grant would provide the basis for 
improving day-to-day operability within each parish and improve 
interoperability within the region. We were 16 months away from 
the completion of the project when we were struck by Hurricane 
Katrina.
    Additionally, working in coordination with the 
Interoperable Communications Technical Assistance Program, 
provided by the Department of Homeland Security, we had begun 
the effort of aligning our regional operating procedures and 
protocols through the completion of a regional tactical 
interoperable communications plan and in late June had 
conducted a tabletop exercise as part of the validation process 
for that plan. A follow-on exercise was scheduled for late 
September; however, that exercise was preempted by Hurricane 
Katrina.
    Before moving on to address the impact of Hurricane Katrina 
on voice communications, I would like to briefly address 
funding issues related to public safety or first responder 
communications systems. In conjunction with the development of 
the application for the COPS grant, the region analyzed options 
for creating a region-wide shared 800 megahertz trunked digital 
system in support of where we thought the region should go in 
order to achieve the highest order of interoperability and 
operability. The cost estimates ranged as high as $45 million, 
and it was viewed as cost prohibitive. Therefore, a plan was 
developed that would move us to a region-wide shared system in 
a phased approach over time. The plan moved St. Bernard and 
Plaquemines Parishes onto the Jefferson Parish law enforcement 
system, which would be upgraded to a dual-mode P25 compliant 
700/800 megahertz system and then link the Jefferson Parish and 
New Orleans systems together through an interoperability 
switch. The expectation was that, as additional funds became 
available through additional COPS or UASI grants, New Orleans 
would migrate to a dual-mode P25 compliant system and then 
further link the region to the State.
    The point here is that, even in ordinary times, most 
agencies who operate on the margin from a fiscal standpoint 
cannot afford to invest in a modern technically advanced voice 
radio communications system without significant Federal grant 
support. After a catastrophic event such as Hurricane Katrina, 
local governments are faced with even greater financial 
challenges and must rely even more on outside funding and no-
cost outside assistance.
    Hurricane Katrina had a devastating impact on the 
communications infrastructure in the four parishes making up 
Region I. In St. Bernard Parish, the extreme winds took away 
communications towers and antennas, and floodwaters inundated 
the 911 center and forced the evacuation of buildings housing 
communications for the fire and sheriff's departments. All 
voice radio communications were lost except for very limited 
radio-to-radio communications.
    In Plaquemines Parish, the parish government communications 
tower and communications center, along with their microwave 
antennas, were lost. The Plaquemines sheriff lost the 911 
communications and dispatch center and all towers. In short, 
all agencies in Plaquemines Parish lost all communications, and 
it was almost 3 weeks before they had any means of voice 
communications.
    The Jefferson Parish sheriff's office lost the main tower 
supporting their communications system and suffered damage to 
other sites throughout their system. Today, antennas supporting 
their communications center are still temporarily located on 
the 400-foot boom of a crane.
    During and in the aftermath of the storm, the region's only 
means of voice communications was the use of five or fewer 
mutual aid channels. In New Orleans, one tower was inundated by 
the storm surge and remains inoperable. Two towers had 
equipment damaged or lost power because of floodwaters, and the 
911 centers and police, fire, and EMS dispatch centers were all 
impacted and rendered unusable by floodwaters. The city was 
also forced to rely on a limited number of mutual aid channels. 
The ACU 1000 interoperability switch, which was located with 
the fire department, had to be abandoned because of the 
floodwaters. Therefore, the interoperability between the four 
parishes and State and Federal agencies was lost.
    It needs to be stated and clearly understood that the 
communications failures were a result of catastrophic physical 
damage or loss as a result of extremely high winds, storm 
surge, and flooding, and not the result of actual system 
failures, even in the older systems.
    As you have heard, the impact of Hurricane Katrina was 
severe, and it has left the region scrambling to restore 
communications before the next hurricane season. That is only 5 
months away. The repair or replacement of infrastructure such 
as communications towers that were damaged by the storm and 
rightfully eligible for replacement and reimbursement by FEMA 
has languished. Some efforts at the State or Federal levels 
have complicated the effort to restore capability and 
interoperability.
    We, as a region, totally understand the implications of 
entering this next storm season without our communications 
systems fully operational, and we are currently working on two 
parallel efforts to restore our communications. The first is to 
patch together what we have left, what has been provided by 
FEMA, and what equipment we can purchase immediately and still 
be able to reuse in the future. This temporary solution will 
support all of the agencies in the region and will provide 
interoperability and redundancy to the fullest extent possible. 
This will not be optimum, but we can at least communicate 
before the next storm season.
    The second is to pursue our regional plan and install a 
dual-mode 700/800 megahertz fully P25 compliant system 
comprised of all first responders in our four-parish region on 
one shared radio system connected to the State's 700 megahertz 
radio system by the end of the year. To augment the COPS grant, 
we have committed all available UASI funds and, as much as 
possible, we are taking advantage of FEMA funding; however, we 
are still approximately $22 million away, and we require that 
for the purchase of subscriber radios for New Orleans and 
Jefferson Parish. Without the additional funding, we will not 
be able to complete the project and will continue to have 
interoperability problems.
    Madam Chairman, Senator Lieberman, thank you for your time. 
I am open for questions.
    Chairman Collins. Thank you. Mr. Smith.

  TESTIMONY OF WILLIAM L. SMITH,\1\ CHIEF TECHNOLOGY OFFICER, 
                     BELLSOUTH CORPORATION

    Mr. Smith. Thank you, Madam Chairman, Ranking Member 
Lieberman. My name is Bill Smith. I am the Chief Technology 
Officer with BellSouth. It is a pleasure to be here with you 
today. I am here today to address the impact of Hurricane 
Katrina on BellSouth's network, the status of that network 
based on restoration completed to date, where we expect to go 
from here as we continue to restore communications to the hard-
hit Gulf area, and what the Federal Government can do to assist 
in those efforts.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Smith appears in the Appendix on 
page 92.
---------------------------------------------------------------------------
    Given the area that we serve, BellSouth has dealt with 
hurricanes for a number of years, and we're proud of the 
resiliency that our network has consistently demonstrated. 
Based in large part on these past experiences and as part of 
our overall network plan, we have actually prepared to put 
equipment in higher floors in many of the low-lying areas of 
the New Orleans bowl, and in fact, most all of that critical 
equipment was located on second floors or higher. That helped 
to avoid damage to much of that critical equipment and actually 
turned restoration periods that would have been months into 
periods of weeks.
    In the coastal areas of Louisiana and Mississippi, we had 
built certain flood-prone structures on pilings in order to 
elevate those buildings approximately 10 feet above ground 
level. But even those precautions were not enough to withstand 
Katrina's sustained winds in excess of 145 miles an hour and 
storm surge that was measured in places to be nearly 40 feet 
tall.
    Prior to making landfall in Florida, BellSouth was 
monitoring Katrina and actually instituted our standard 
hurricane procedures. Those included positioning over 1,000 
portable generators, making sure that they are in working 
order, that they're fueled properly, making sure that fuel 
tanks are filled in all of our central office locations and 
administrative buildings as well as our vehicles. We also take 
provisions into the area to build temporary structures, tents 
that can house our personnel, and provide food and shelter in 
nearby locations.
    BellSouth has 1,591 central office buildings across our 
region; 578 of those are in Alabama, Louisiana, and 
Mississippi. Throughout the storm, 545 of the 578 offices never 
lost service. As the loss of commercial power was widespread, 
many of these offices were running on batteries supported by 
generators. Generators require fuel. In the past, our 
technicians have had access to those central offices where the 
generators are housed in order to provide proper fueling and 
refueling, as well as maintenance. This was not the case in 
Hurricane Katrina. When the levees failed in New Orleans, the 
water did not recede. Because of the continued flooding and 
unprecedented security issues, generator power was lost at 
several central offices due to our inability to refuel the 
generators.
    Once we were able to gain access and begin restoration, we 
concentrated on restoration of the highest priority circuits, 
specifically those which support public safety, including 
hospitals, E-911 centers, and law enforcement. We then focused 
on supporting other carriers, including the wireless industry. 
I have listed these sequentially, but they often work 
simultaneously.
    BellSouth has been extremely focused on the wireless 
industry in restoration efforts. We conducted two daily calls, 
one with wireless carriers and the other with wireline 
carriers. These collaborative efforts were very important in 
the restoration effort. In this new dynamic age of 
communications, alternative technology, such as wireless and 
Voice over IP, utilize and interconnect to the traditional 
wireline network. Thus, as BellSouth restores its network, we 
also enable other carriers to restore theirs.
    We made significant progress in restoration due to the 
tireless and often heroic efforts of our employees, who have 
worked around the clock with the single-minded mission of 
restoring communications to these hard-hit areas.
    I would like to discuss what our cooperation has been and 
needs for further assistance. Overall, the cooperation and 
assistance from local, State, and Federal agencies has been 
good. The FCC, along with staff members, was extraordinarily 
helpful. The FCC reached out to offer assistance in many areas, 
waiving rules that helped customers who were without service 
and taking actions that allowed for the quick restoration of 
network facilities. Because of this, BellSouth was able to make 
its own corporate network available to other companies to help 
them restore their networks. BellSouth was also in constant 
communication with other Federal agencies and received strong 
support from the White House Executive Office of the President.
    Now let me address what additional assistance is necessary. 
My testimony, as follows, outlines a number of areas, and I 
won't go into all of those, but I think what is most important 
is that we do need to be designated as emergency responder in a 
hurricane or natural disaster of this nature. We believe that 
may involve modifications to the Stafford Act, the Homeland 
Security Act of 2002, and the NRP to explicitly indicate that 
we get access, security, fuel, and power.
    Other issues we believe involve the cost to restore our 
network. Our investments thus far have been over $500 million 
to restore service in our network, and we think that the total 
amount will be close to $900 million. Now, as we make those 
investments in these uncertain situations in the Gulf area, 
we're not only enabling our own network, but we're enabling 
other carriers who use our network, and we would like to see 
that taken into consideration.
    That concludes my comments. Thank you for your attention.
    Chairman Collins. Thank you very much for your testimony, 
Mr. Smith.
    The Committee during the course of its investigation has 
come across many documents, e-mails in particular, talking 
about the difficulties that communications workers, the repair 
crews, had in gaining access due to State, local, and Federal 
roadblocks. In the exhibit book on Exhibit 20,\1\ which you can 
turn to, but I will just paraphrase some of it. We have, for 
example, an e-mail that talks about MCI being told by the State 
Police that they needed a letter from the governor in order to 
get access to the New Orleans area, and MCI saying that the 
inability to get access is giving the whole Gulf-South network 
problems.
---------------------------------------------------------------------------
    \1\ Exhibit 20 appears in the Appendix on page 111.
---------------------------------------------------------------------------
    Similarly, there is an e-mail from Cox Communications 
describing the experience of their employees, and it says, 
``Our efforts to get our telecommunications network back up and 
running is being severely hampered by FEMA. They are denying 
our field personnel fuel and taking any surplus that we have.''
    So here we have heard from MCI and from Cox. You have 
mentioned the lack of security was the problem for your 
workers. Did you have difficulty in even getting access to the 
sites where you needed to do repairs?
    Mr. Smith. Yes, we did. We had similar situations in all 
those cases, whether it was fuel--at one point in time we had a 
priority letter that I think came from DHS that said we should 
get priority access to fuel so that when we went to fuel 
suppliers we could get that. It was subsequently rescinded, and 
I think, again, as I understand it, it was because there was 
some question about whether the Stafford Act actually allows 
them to give a private organization priority access. Fuel and 
security were our biggest issues, as well as access. We had a 
significant amount of problems in trying to get secure forces 
for our areas. In fact, in my filed testimony, there is a more 
detailed explanation about what happened at the New Orleans 
main central office, which is kind of the nerve center of the 
telecommunications network in New Orleans.
    Chairman Collins. Go ahead and describe that for us.
    Mr. Smith. Well, we had our major center located there to 
coordinate all of our emergency efforts. On Tuesday morning, it 
became pretty evident that the situation was deteriorating in 
New Orleans, and part of this, as you mentioned earlier, was 
based on information that we were getting regarding people 
being attacked, buildings being overrun, so forth and so on. So 
we began trying to get security for that facility because we 
had 82 people in that facility. It was a critical facility for 
us. We did not want to abandon it. We wanted to maintain it. 
But we wanted our people to be safe.
    We spent most of that day trying to get security for that 
facility. Finally, at about 3 p.m. local time, Central Time, we 
got the State police to escort our people out of the building 
because they could not stay and secure it. After we evacuated 
the building, we were able to arrange for an FBI team to go in 
later that evening, re-secure the building, and we were able to 
go back in the next morning with an armed convoy, with fuel and 
supplies.
    Fortunately, that building did not fall to looters or 
anyone that would have done harm because it would have been a 
much more serious situation. But that is an example of the kind 
of thing that we faced.
    Chairman Collins. Mr. Fonash, you said in your statement 
that security, fuel, and access were the key priorities. We 
have just heard through documents and through testimony 
problems with security, fuel, and access that prevented 
telecommunications workers from getting to the sites where they 
needed to make desperately needed repairs. What is your 
response to that?
    Mr. Fonash. Well, Madam Chairman, my response to that is 
those are issues that were identified in after-action reports, 
and the department and other parts of the government are 
examining ways of making sure that those things do not happen 
in the future. So we are addressing those issues. We recognize 
the problem, and the Department is trying to address those 
issues. But those were clearly problems that we saw throughout 
Katrina. I think we identified that problem on September 2, 
security being a problem. And it lasted probably for about a 
month. There were also concerns with regard to physical 
security of the crews working inside the central offices. There 
were security concerns with regard to the trucks going out in 
the field and trying to make repairs. And there were issues 
about security in terms of the fuel resupplies.
    For example, we had to arrange for fuel resupply convoys, 
and industry actually arranged for fuel resupply convoys where 
they would hire private guards. For example, BellSouth many 
times arranged a convoy where Poydras Street is, that street in 
New Orleans where there are many communications facilities, and 
it was actually arranged for many convoys, fuel convoys, by 
industry to come in so that they could refuel those locations, 
and security was a concern, as well as the fact that fuel many 
times was a scarce resource, and the companies had to share 
among each other to ensure for the most part that those 
communications facilities stayed up.
    In addition, there were some problems in the broadcast 
area. The major Spanish language station was having some major 
problems in terms of fuel. Their generators--they had to go on 
half-power for quite a while, and it was actually BellSouth 
again that also arranged for fuel resupply on that.
    So fuel was a problem for quite a while--not as long as 
security--I think for about 2 or 3 weeks. Security was a major 
concern. And then also there was a problem of access, and 
access, first of all, you break it into two pieces: 
Credentialing--and credentialing is that the person has 
authenticated, valid identification that says this person works 
for BellSouth, AT&T, or MCI and needs to get into a key 
facility, maybe a facility that is not open to the general 
public. Because one of the things that the communications 
industry as well as the power industry has to do is they have 
to come into those areas. Before the general public can come 
in, you must restore power and you must restore communications.
    Chairman Collins. But that is utterly foreseeable. It is 
obvious that you are going to have to have the power company 
and the telecommunications companies with access to the area 
before the general public. I mean, that is something that 
should have been anticipated.
    Mr. Fonash. That is currently not--in the NRP, no 
infrastructure is provided any priority over any other 
infrastructure.
    Chairman Collins. Well, isn't that a huge deficiency of the 
NRP then?
    Mr. Fonash. Well, we, as the telecommunications 
infrastructure, have identified that as something that we would 
like to address in the NRP. We have identified that.
    The other part of access, which is a really tough nut to 
resolve, is the fact that it is a State and local issue and not 
just a Federal issue in the sense of not only do you have to 
have the credentials, but you have to have the State and local 
authorities recognize the credentials and allow people to enter 
into those locations. So we need to address the credentialing 
problem. We need to address the fact that the local and State 
authorities will recognize those credentials. And then we need 
to also address the issue of which infrastructures have to get 
in there first to restore services so that the general public 
can come in.
    Chairman Collins. I am not saying that this is just a 
Federal problem. I read an e-mail where MCI was told in order 
to get access to an area they needed a letter from the 
governor. So, clearly, the credentialing issue spans State, 
local, and Federal Government. But it is extraordinary to me 
that the need to have this access and this credentialing was 
not recognized prior to Hurricane Katrina or any other natural 
disaster.
    Mr. Fonash. In general, Madam Chairman, what happens is 
that the State--what will happen is during a disaster--for 
example, in Florida and in Texas, the State worked out a 
credentialing system and accepted the entry, allowed the entry 
of the communications carriers into facilities that were areas 
that were closed off. So a lot of it depends on the State 
Government being able to function in terms of saying that these 
are credentials, we will allow in the communications carriers, 
we will allow in the power companies, and to work with the 
State and local authorities to accept that. So that is 
something that is generally worked out at the State level, and 
the State and local governments work that out. In this case, it 
didn't work.
    Chairman Collins. Senator Lieberman.
    Senator Lieberman. Thanks very much again, Madam Chairman.
    Incidentally, Mr. Smith, thank you for your testimony, and 
here again BellSouth looks to me, sounds to me like it took 
some very effective pre-storm steps to prepare for what 
happened and under the circumstances of an enormous storm 
really did very well, and I congratulate you for that. We have 
seen some cases where the Federal, State, and local government 
did the same, and we have seen some other cases where it didn't 
do the same. And that is what we are trying to work toward, so 
I appreciate your testimony--it was very helpful--and your 
suggestion about the changes in the Stafford Act.
    Mr. Fonash, thanks for your testimony. I think you followed 
the line of questions that I asked the previous panel, and I 
want to do the same in your case. The National Communications 
System has a very impressive and long record of working 
particularly with the private telecommunications industry to be 
ready in crises. And you were given responsibility under the 
ESF-2 part of the NRP for communications.
    I was really interested in reading the transcript of 
interviews that both you and Jeff Glick, who is operationally 
in charge of Emergency Support Function ESF-2--am I right about 
that?
    Mr. Fonash. Correct.
    Senator Lieberman [continuing]. And reports to you, about 
your answers to some of the questions. Mr. Glick, for instance, 
told Committee investigators that it is possible to interpret 
the NRP as not including first responder systems since the plan 
does not specifically refer to so-called LMR networks, land 
mobile radio. And I wanted to ask--and, in fact, I will go on 
one more. You and Mr. Glick in your interviews said that in 
past hurricanes, the issue of so-called LMR, land mobile radio 
networks, used by first responders had never come up, that in 
that sense even since the NRP that ESF-2 had never had to deal 
with those radio systems.
    So I want to ask you what your understanding was after the 
NRP following its predecessor was issued in January of 2005, 
with regard to your responsibility for communications in a 
disaster circumstance, natural or otherwise, and specifically 
whether it included more than working with the private 
telecommunications industry.
    Mr. Fonash. OK. Sir, there was something--predecessor to 
the NRP----
    Senator Lieberman. Yes.
    Mr. Fonash [continuing]. Was something called the Federal 
Response Plan.
    Senator Lieberman. Exactly.
    Mr. Fonash. And in the Federal Response Plan, there was an 
ESF-2 also, but it was for telecommunications.
    Senator Lieberman. Right.
    Mr. Fonash. Not communications.
    Senator Lieberman. Right.
    Mr. Fonash. And we actually explicitly decided to change 
that from telecommunications to communications to make it 
broader.
    Senator Lieberman. You mean in the NRP?
    Mr. Fonash. The NRP changed it.
    Senator Lieberman. Did you have a hand in that?
    Mr. Fonash. Yes, I did, sir.
    Senator Lieberman. Interesting. So what were you thinking 
about?
    Mr. Fonash. It was expanded in terms of two planes: First 
of all, in terms of communications, pure communications, we 
view it as including cable, broadcast, and radio.
    Senator Lieberman. Got you.
    Mr. Fonash. But we also broadened it to include cyber or 
IT. So it is not only the transfer of information, which is the 
standard definition of communications, but also the information 
processing, what you would look at as cyber or Internet.
    Now, also, the comment I would like to make, sir, is that 
the telecommunications companies that you are talking to are 
also the Internet providers.
    Senator Lieberman. Right.
    Mr. Fonash. I think what Jeff and I were referring to was 
not whether or not it was within scope, but that we had--first, 
the way we work is that ESF-2 is set up--that the Federal 
Government is set up to respond to State and local requests. 
Actually, we are set up to respond to State requests. In 
general, what normally happens is that the local government has 
requirements. If they cannot meet those requirements, they go 
to the State Government. If the State Government cannot handle 
those requirements, they come to us for communications 
requirements. And then we will try to address them.
    In our experience of handling hurricanes and over our years 
of experience of handling hurricanes, we had never seen the 
need to provide--or were never asked by the State or local 
government to help them put together--or to repair a land 
mobile radio system. We had never had that request before.
    Senator Lieberman. Right. So can I fairly conclude, then, 
that in your work in the predecessor plan--was it called the 
Federal Response Plan?
    Mr. Fonash. Federal Response Plan.
    Senator Lieberman. And then in the NRP, you were not 
prepared to come in and provide emergency communications 
systems for State or local governments in time of crisis?
    Mr. Fonash. No, that is not true.
    Senator Lieberman. So explain that to me.
    Mr. Fonash. So what I mean by that is that we in general 
rely on a commercial infrastructure. First of all, we have our 
priority service programs that allow you to utilize what 
remaining public infrastructure is there. In addition to that, 
what we will do is, using the ESF process, Emergency Support 
Function process, which basically says if the State Government 
has a requirement--there are technical areas. There are 15 ESF 
organizations.
    Senator Lieberman. Excuse me for doing this, but the time 
is running.
    Mr. Fonash. Sure.
    Senator Lieberman. I just want to make it clear. I gather 
from what you have said that you never had been asked by the 
State and local governments to play this kind of role.
    Mr. Fonash. Correct.
    Senator Lieberman. But were you ready to help them if they 
asked?
    Mr. Fonash. It is very difficult to be ready to support a 
request for land mobile radio because, first of all, one of the 
big differences is analog versus digital.
    Senator Lieberman. Right.
    Mr. Fonash. Second is frequency. Third is that the 
algorithms that each of those--they are proprietary algorithms. 
A Harris system will not work with a Motorola system, even if 
it is digital, even if it is on the same frequency.
    Senator Lieberman. Understood. This is an interesting 
problem because I suppose in one sense to be direct and 
comprehensive and fair about it, to the extent that you help 
private telecommunications to get their system up, you are 
assisting public authorities because they can then use that 
system to communicate.
    Mr. Fonash. Correct.
    Senator Lieberman. But I do think that there is a 
requirement now to think about--because I do think that some of 
the local officials really overwhelmed as they were and seeing 
this--this goes back to my earlier line of questions. The 
President declares an emergency Saturday morning. I wish 
looking back that--in all the exercises we have gone over here, 
the Hurricane Pam exercise, the State and locals in the case of 
a hurricane like Katrina with flooding and over-running the 
levees, that would have been overwhelmed and would have a need 
for emergency communications help, but nobody was there to--I 
mean, let me ask you this question: In the weekend before 
Katrina made landfall, did anyone in the Homeland Security 
Department, the Secretary or anyone else, ever bring together 
you and the other heads of the relevant DHS agencies who had 
responsibility under the NRP to coordinate the response to the 
hurricane that was now thought to be so serious that the 
President had declared an emergency?
    Mr. Fonash. Well, first of all, the NRCC was activated, 
National Response Coordination Center.
    Senator Lieberman. Right.
    Mr. Fonash. So under the NRP, they are the ones to 
coordinate across the ESF structure, and they were activated, 
and we sent a representative over there.
    Senator Lieberman. And what did that mean? Were you asked 
what you were prepared to do at that time?
    Mr. Fonash. Right. In other words, we basically established 
a desk, a watch over there. We provide them with situation 
awareness in terms of what is going on with the communications 
infrastructure at that point in time. And we let them know if 
there are any particular requirements that we are trying to 
address, and if we need help, we would go to them because all 
the ESFs are there at the national level. They're all there at 
the national level, and so if there's a national issue, they 
would address it there at the national level.
    There is also a corresponding infrastructure, an ESF 
structure at the local level. And if there are problems at the 
local infrastructure that those local ESFs can handle, then 
initially they are handled at the Regional Response Control 
Center, and then at the Joint Field Office. They handle those 
problems. The way we do it is there are problems that can be 
handled at the local level, for example, if there are problems 
at Baton Rouge, there are not enough phone lines, the ESF-2 
there would get that requirement to add additional phones. That 
would generally not be a problem that we would see.
    Senator Lieberman. Right.
    Mr. Fonash. We would see problems that would be policy. 
Also the Interagency Incident Management Group (IIMG) was 
activated, and my boss, Bob Stephan, the Assistant Secretary, 
heads that up.
    Senator Lieberman. Let me interrupt you because time is 
running out. I want to get some questions to Colonel Dowden. So 
I appreciate the answer, and you are in a unique situation 
because of the circumstances you described about communications 
and the difficulty of stepping in.
    Colonel Dowden, as a lay person in this, as I watched what 
was happening--and we have spent a lot of time now on this 
investigation going over it--obviously as I see how your 
communications system was knocked out, I look back and I say, 
Why wasn't the Federal Government in some form ready to come in 
to provide an alternative system?
    On the ground in the middle of it all, did you have a 
similar hope yourself?
    Colonel Dowden. Yes, sir.
    Senator Lieberman. Was there any discussion at all prior to 
Katrina with the Department of Homeland Security, FEMA, or 
anyone else about what, if any, kind of emergency 
communications support they might provide if the so-called big 
one, the big hurricane, hit New Orleans?
    Colonel Dowden. Not to my knowledge.
    Senator Lieberman. I do want to ask you a couple of 
questions briefly. You told our staffs that you had developed a 
tactical interoperable plan for the region, but interestingly, 
it was geared more toward an explosives situation, a terrorist 
attack, never designed to work given the destruction or 
magnitude of the problems you encountered with Hurricane 
Katrina. If that is right, I wonder if you could elaborate on 
it and tell us a little more about it.
    Colonel Dowden. Sir, the scenario that was specifically 
required for the development of the tactical interoperable 
communications plan was spelled out in the 2005 UASI grant 
guidance.
    Senator Lieberman. I got you. So this is what you did in 
response to the UASI?
    Colonel Dowden. Yes, sir.
    Senator Lieberman. Urban Area Security----
    Colonel Dowden. It is one of the 17 scenarios that they lay 
out in the National Plan.
    Senator Lieberman. That is a very important point. So that 
the Urban Area Security--the ``I'' is ``Initiative,'' am I 
right?
    Colonel Dowden. Yes, sir.
    Senator Lieberman. That was focused on preparation for a 
terrorist attack.
    Colonel Dowden. Yes, sir.
    Senator Lieberman. So that is why you did that as opposed 
to beginning to think about what you would do in the case of a 
disaster, a natural disaster.
    Colonel Dowden. Yes, sir, and that particular scenario is 
geared toward an explosion of an IED-type device in a major 
sporting event with numerous casualties, but nothing on the 
magnitude or the scale of what happens with a hurricane, even a 
small hurricane.
    Senator Lieberman. Understood. This is actually one 
specific area in which we can see the impact that some have 
charged that the Department was focused on terrorist response 
and preparation and may have, therefore, not given adequate 
attention to natural disaster preparation and response.
    Colonel Dowden. Yes, sir.
    Senator Lieberman. Madam Chairman, do you intend to have 
another round?
    Chairman Collins. I was going to do a very brief final 
round.
    Senator Lieberman. Good. Then I will save my last question 
until you do yours. Thank you.
    Chairman Collins. My last question is for you, Colonel, 
also. You discussed in your testimony the need for a new 
interoperable communications system that would connect all 
first responders in a four-parish region to each other and 
would further connect them to the State of Louisiana's radio 
system. And, of course, the problem, as you point out, is the 
cost.
    You note that beyond what New Orleans can devote to the 
project through various Federal grants, you need an additional 
$22 million to purchase the subscriber radios. My staff has 
analyzed the numbers, and I want to share with you what we 
found.
    First, the figures from the U.S. Department of Homeland 
Security indicate that the State of Louisiana has approximately 
$58 million in unspent first responder grant money, and that is 
not counting what it will receive in this fiscal year. And some 
of these funds date back to the fiscal year 2003 grant 
allocation.
    Second, the figures provided by the State of Louisiana 
indicate that roughly 16 percent of the Federal first responder 
grant dollars that it receives are spent on interoperable 
communications equipment. And you may be interested to know 
that is only approximately half the national average. In other 
words, most other States spend far more of their first 
responder grant money for interoperability communications 
projects because that is a need everywhere. Nationally, 
approximately one in three Federal homeland security grant 
dollars are spent on interoperable communications equipment.
    Now, it is very clear from all the testimony that we have 
had and from the experience with Katrina that you have an 
urgent need for better, more sustainable, and interoperable 
communications equipment. It also seems to me that the State 
should have an interest in seeing to it that you get that 
equipment.
    I wonder if you have approached the State of Louisiana to 
see whether it would reallocate some of the $58 million in 
unspent funds to allow you to complete the system that you 
envision.
    Colonel Dowden. Madam Chairman, we each year lose about 20 
percent of our UASI grant monies, for example, because the 
State withholds that amount of money as their prerogative, and 
the stipulation is that money is supposed to come back to the 
region in some form to support the region. This last year, we 
did go to the State and ask for the 20 percent that they had 
withheld from our UASI grant. After Katrina, they agreed, and 
it is my understanding that their intent is to release that 20 
percent they have withheld from the UASI grant for support of 
Region I or for the four-parish area.
    Chairman Collins. Let me clarify that I am not talking 
about the UASI money.
    Colonel Dowden. I understand.
    Chairman Collins. I am talking about the first responder, 
the standard homeland security grant money.
    Colonel Dowden. That money, we have asked, but 
unfortunately I have no control over how they allocate those 
funds. So we do not see those funds at the local level, 
typically, specifically earmarked for communications. Now, they 
may come in other forms, but to my knowledge, what we have seen 
in communications equipment in the last 3 years has probably 
been in the neighborhood of about $3 million.
    Keep in mind that the way the State accounts for the money 
is any equipment that they buy, whether it is computers or fax 
machines or whatever, may get charged against communications or 
communications interoperability, not necessarily to land mobile 
radios or voice radios.
    So I don't know specifically, when you say they have spent 
$16 million and that they have got $56 million remaining, I am 
not quite sure how they account for that money, very honestly.
    Chairman Collins. Neither am I. Senator Lieberman.
    Senator Lieberman. Thanks.
    Colonel Dowden, I know that you, in addition to your 
current responsibilities, have had extensive service to our 
country in the Marines, and as part of that, have a lot of 
logistics and communication background. Maybe I have more than 
one question, but it is under that general category about how 
this all worked.
    Some of the problems were clearly because of outdated 
equipment, but it seems to me that some of the problems that 
you had may also have been related to more than that. And let 
me just lead you into an anecdote, which is that--I gather you 
were assigned to the State Emergency Operations Center in Baton 
Rouge as the city's liaison.
    Colonel Dowden. That's correct.
    Senator Lieberman. And I take it, notwithstanding all the 
problems with communications, you managed to stay in 
communication with Colonel Ebbert and his staff and conveyed 
the needs of first responders in New Orleans, therefore, to the 
State EOC and to FEMA. I want you to talk a little bit about 
how that process worked inside the State Emergency Operations 
Center.
    Colonel Dowden. Sir, in the early days, and I would say 
within the first 3 or 4 days after the storm made landfall, 
most of the communications and most of the requests for support 
came via telephone, and there was at that point only one 
telephone line that we were able to communicate with Colonel 
Ebbert in New Orleans.
    At some point, what they called their E-team system came 
up, and that's a computer system that's designed to allow you 
to request support, track support, and then give you the status 
later of what type of support you----
    Senator Lieberman. Is that a State system or a Federal 
system?
    Colonel Dowden. It is a State system.
    Senator Lieberman. OK.
    Colonel Dowden. That particular system was installed by the 
State. It has serious shortfalls, the actual program itself 
does. For instance, it does not allow you to go back and check 
the status of a particular request. You have to go in based on 
when you think the date was, or if you knew what date it was 
submitted, you can go into the system and find that particular 
request. But there is no way of tracking the status, getting an 
update on what is outstanding, what has been taken care of, 
what has not been taken care of.
    That E-team request reaches the State EOC, and they make a 
determination as to whether or not that particular support can 
be provided by the State within its existing resources or it 
must be passed to FEMA.
    Senator Lieberman. This is a system that is used 
particularly in an emergency?
    Colonel Dowden. It's designed for an emergency, yes, sir.
    Senator Lieberman. Right.
    Colonel Dowden. The State makes a determination that it can 
be handled within State resources, and they task to the 
National Guard or the State Department of Transportation or 
whatever.
    Senator Lieberman. Right.
    Colonel Dowden. If they make a determination that it cannot 
be handled within State assets, then they pass that through 
what they call an administrative request form, or AR, as I came 
to understand it, to FEMA. At that point, basically, as a local 
person trying to track support requests, I lose visibility on 
what's happened with my particular request. Part of my job in 
Baton Rouge was to go to FEMA and request status on particular 
requests, particularly for fuel, water, food, and those kinds 
of things.
    Senator Lieberman. Do I understand correctly that the State 
system, the E-team system, is a computerized system; whereas, 
the FEMA system is still a paper system?
    Colonel Dowden. At that point, it is manual. That's 
correct.
    Senator Lieberman. So that you had to transfer in the 
middle of the emergency to be able to----
    Colonel Dowden. They have a form, Senator, many government 
forms, that you transfer the request in writing, you handwrite 
it, basically fill it out, and you hand it to the FEMA ops 
desk.
    Senator Lieberman. Do I correctly assume that caused delays 
or that there were bottlenecks in the process as a result?
    Colonel Dowden. Oh, absolutely.
    Senator Lieberman. I have heard that the problems in the 
system that you have just described led one of your deputies, a 
Captain Joseph, to bypass the system and contract directly with 
vendors, such as Fisher Scientific, for commodities or 
equipment that were needed, and that the companies like Fisher 
provided--were able to deliver the supplies to first responders 
in New Orleans during the very first days when apparently FEMA 
could not. Am I right?
    Colonel Dowden. That's correct.
    Senator Lieberman. Can you tell us just a bit about that?
    Colonel Dowden. Prior to Hurricane Katrina, we had an 
established relationship with Fisher because they provided 
other equipment that we often need and homeland security hazmat 
equipment, bomb suits, hazmat suits, those kinds of things. So 
when the hurricane hit and we began to encounter problems with 
being able to get what we needed to keep the police and the 
fire folks properly equipped or clothed, Mike Joseph basically 
reverted to what we knew would work, and with that established 
relationship, we began to post requisitions or requests with 
Fisher, and they honored those requisitions, and they filled 
those requisitions and got the equipment and supplies to our 
folks in New Orleans.
    Senator Lieberman. How did you make the request, by phone 
or computer?
    Colonel Dowden. Telephone.
    Senator Lieberman. Telephone. And did they actually get it 
in in the first days after the storm?
    Colonel Dowden. Yes, they did.
    Senator Lieberman. How did they do it?
    Colonel Dowden. Various means, everything from UPS to FedEx 
to line-haul freight carriers.
    Senator Lieberman. But it wasn't going directly to New 
Orleans, was it?
    Colonel Dowden. Yes, sir.
    Senator Lieberman. Even during those first few days?
    Colonel Dowden. Yes, sir. We knew the routes that you could 
take into New Orleans, and so when we were in contact with 
Fisher, and in some cases they guided the drivers into New 
Orleans, and it was delivered. In the early days, that was the 
only way we were able to get some clothing--dry clothing and 
equipment and things of that nature to our police and firemen.
    Senator Lieberman. That is quite a story.
    Thank you all for your testimony. Thank you for your 
service. Thanks, Madam Chairman.
    Chairman Collins. Thank you.
    Thank you very much for your testimony today. The hearing 
record will remain open for 15 days, so we may have additional 
questions for you for the record. But we very much appreciate 
your cooperation and your being here this afternoon.
    Thank you. This hearing is now adjourned.
    [Whereupon, at 5:04 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 27025.001

[GRAPHIC] [TIFF OMITTED] 27025.002

[GRAPHIC] [TIFF OMITTED] 27025.003

[GRAPHIC] [TIFF OMITTED] 27025.004

[GRAPHIC] [TIFF OMITTED] 27025.005

[GRAPHIC] [TIFF OMITTED] 27025.006

[GRAPHIC] [TIFF OMITTED] 27025.007

[GRAPHIC] [TIFF OMITTED] 27025.008

[GRAPHIC] [TIFF OMITTED] 27025.009

[GRAPHIC] [TIFF OMITTED] 27025.010

[GRAPHIC] [TIFF OMITTED] 27025.011

[GRAPHIC] [TIFF OMITTED] 27025.012

[GRAPHIC] [TIFF OMITTED] 27025.013

[GRAPHIC] [TIFF OMITTED] 27025.014

[GRAPHIC] [TIFF OMITTED] 27025.015

[GRAPHIC] [TIFF OMITTED] 27025.016

[GRAPHIC] [TIFF OMITTED] 27025.017

[GRAPHIC] [TIFF OMITTED] 27025.018

[GRAPHIC] [TIFF OMITTED] 27025.019

[GRAPHIC] [TIFF OMITTED] 27025.020

[GRAPHIC] [TIFF OMITTED] 27025.021

[GRAPHIC] [TIFF OMITTED] 27025.022

[GRAPHIC] [TIFF OMITTED] 27025.023

[GRAPHIC] [TIFF OMITTED] 27025.024

[GRAPHIC] [TIFF OMITTED] 27025.025

[GRAPHIC] [TIFF OMITTED] 27025.026

[GRAPHIC] [TIFF OMITTED] 27025.027

[GRAPHIC] [TIFF OMITTED] 27025.028

[GRAPHIC] [TIFF OMITTED] 27025.029

[GRAPHIC] [TIFF OMITTED] 27025.030

[GRAPHIC] [TIFF OMITTED] 27025.031

[GRAPHIC] [TIFF OMITTED] 27025.032

[GRAPHIC] [TIFF OMITTED] 27025.033

[GRAPHIC] [TIFF OMITTED] 27025.034

[GRAPHIC] [TIFF OMITTED] 27025.035

[GRAPHIC] [TIFF OMITTED] 27025.036

[GRAPHIC] [TIFF OMITTED] 27025.037

[GRAPHIC] [TIFF OMITTED] 27025.038

[GRAPHIC] [TIFF OMITTED] 27025.039

[GRAPHIC] [TIFF OMITTED] 27025.040

[GRAPHIC] [TIFF OMITTED] 27025.041

[GRAPHIC] [TIFF OMITTED] 27025.042

[GRAPHIC] [TIFF OMITTED] 27025.043

[GRAPHIC] [TIFF OMITTED] 27025.044

[GRAPHIC] [TIFF OMITTED] 27025.045

[GRAPHIC] [TIFF OMITTED] 27025.046

[GRAPHIC] [TIFF OMITTED] 27025.047

[GRAPHIC] [TIFF OMITTED] 27025.048

[GRAPHIC] [TIFF OMITTED] 27025.049

[GRAPHIC] [TIFF OMITTED] 27025.050

[GRAPHIC] [TIFF OMITTED] 27025.051

[GRAPHIC] [TIFF OMITTED] 27025.052

[GRAPHIC] [TIFF OMITTED] 27025.053

[GRAPHIC] [TIFF OMITTED] 27025.054

[GRAPHIC] [TIFF OMITTED] 27025.055

[GRAPHIC] [TIFF OMITTED] 27025.056

[GRAPHIC] [TIFF OMITTED] 27025.057

[GRAPHIC] [TIFF OMITTED] 27025.058

[GRAPHIC] [TIFF OMITTED] 27025.059

[GRAPHIC] [TIFF OMITTED] 27025.060

[GRAPHIC] [TIFF OMITTED] 27025.061

[GRAPHIC] [TIFF OMITTED] 27025.062

[GRAPHIC] [TIFF OMITTED] 27025.063

[GRAPHIC] [TIFF OMITTED] 27025.064

[GRAPHIC] [TIFF OMITTED] 27025.065

[GRAPHIC] [TIFF OMITTED] 27025.066

[GRAPHIC] [TIFF OMITTED] 27025.067

[GRAPHIC] [TIFF OMITTED] 27025.068

[GRAPHIC] [TIFF OMITTED] 27025.069

[GRAPHIC] [TIFF OMITTED] 27025.070

[GRAPHIC] [TIFF OMITTED] 27025.071

[GRAPHIC] [TIFF OMITTED] 27025.072

[GRAPHIC] [TIFF OMITTED] 27025.073

[GRAPHIC] [TIFF OMITTED] 27025.074

                                 <all>

</pre></body></html>
